<html>
<title> - TRANSIT AND OVER-THE-ROAD BUS SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                 TRANSIT AND OVER-THE-ROAD BUS SECURITY
=======================================================================

                                (109-61)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    HIGHWAYS, TRANSIT AND PIPELINES

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 29, 2006

                               __________

                       Printed for the use of the
            Committee on Transportation and Infrastructure





                    U.S. GOVERNMENT PRINTING OFFICE

28-276 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JERROLD NADLER, New York
JOHN L. MICA, Florida                GENE TAYLOR, Mississippi
PETER HOEKSTRA, Michigan             JUANITA MILLENDER-McDONALD, 
SPENCER BACHUS, Alabama              California
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
SUE W. KELLY, New York               EARL BLUMENAUER, Oregon
RICHARD H. BAKER, Louisiana          ELLEN O. TAUSCHER, California
ROBERT W. NEY, Ohio                  BILL PASCRELL, JR., New Jersey
FRANK A. LoBIONDO, New Jersey        TIM HOLDEN, Pennsylvania
JERRY MORAN, Kansas                  BRIAN BAIRD, Washington
GARY G. MILLER, California           SHELLEY BERKLEY, Nevada
ROBIN HAYES, North Carolina          JIM MATHESON, Utah
ROB SIMMONS, Connecticut             MICHAEL M. HONDA, California
HENRY E. BROWN, Jr., South Carolina  RICK LARSEN, Washington
TIMOTHY V. JOHNSON, Illinois         MICHAEL E. CAPUANO, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    ANTHONY D. WEINER, New York
SAM GRAVES, Missouri                 JULIA CARSON, Indiana
MARK R. KENNEDY, Minnesota           TIMOTHY H. BISHOP, New York
BILL SHUSTER, Pennsylvania           MICHAEL H. MICHAUD, Maine
JOHN BOOZMAN, Arkansas               LINCOLN DAVIS, Tennessee
MARIO DIAZ-BALART, Florida           BEN CHANDLER, Kentucky
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
TOM OSBORNE, Nebraska                RUSS CARNAHAN, Missouri
KENNY MARCHANT, Texas                ALLYSON Y. SCHWARTZ, Pennsylvania
MICHAEL E. SODREL, Indiana           JAMES L. OBERSTAR, Minnesota
DAVID G. REICHERT, Washington          (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Bushue, Sandra K., Deputy Administrator, Federal Transit 
  Administration.................................................     5
 Hecker, JayEtta Z., Director, Physical Infrastructure Team, 
  Government Accountability Office...............................     5
 Henke, Tracy A., Assistant Secretary, Office of Grants and 
  Training, Department of Homeland Security......................     5
 Millar, William W., President, American Public Transportation 
  Association....................................................    28
 Pantuso, Peter J., President and CEO, American Bus Association..    28
 Siano, Michael, International Executive Vice President, 
  Amalgamated Transit Union......................................    28

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    48
Cummings, Hon. Elijah E., of Maryland............................    49
Porter, Hon. Jon, of Nevada......................................    00

              PREPARED STATEMENTS SUBMITTED BY THE WITNESS

 Bushue, Sandra K................................................    41
 Hecker, JayEtta Z...............................................    56
 Henke, Tracy A..................................................    87
 Millar, William W...............................................   100
 Pantuso, Peter J................................................   127
 Siano, Michael..................................................   140

                       SUBMISSIONS FOR THE RECORD

 Bushue, Sandra K., Deputy Administrator, Federal Transit 
  Administration, response to a question from Rep. Pascrell......    47
 Millar, William W., President, American Public Transportation 
  Association, Survey of United States Transit System Security 
  Needs and Funding Priorities, Summary of Findings, April 2004..   107

                         ADDITION TO THE RECORD

National School Transportation Association, National Association 
  for Pupil Transportation, National Association of State 
  Directors of Pupil Transportation Services, statement..........   145


                 TRANSIT AND OVER-THE-ROAD BUS SECURITY

                              ----------                              


                       Wednesday, March 29, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways, Transit, and Pipelines, 
            Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, Hon. Thomas Petri 
[chairman of the subcommittee] presiding.
    Mr. Petri. The hearing will come to order.
    In today's hearing, we will examine issues related to the 
security of transit and intercity bus systems, including the 
roles and responsibilities of the Federal Transit 
Administration and the Department of Homeland Security, the 
state of preparedness in the transit industry, and federal 
programs and activities that help meet the security needs of 
the American public transportation system.
    Worldwide, the statistics on terrorist attacks are 
alarming. According to the Mineta Transportation Institute, 42 
percent of all terrorist attacks over the 10-year period from 
1991 to 2001 were carried out against rail systems and buses, 
42 percent. In just the last two years, we have graphic 
evidence that the transit systems are popular terrorist 
targets.
    In March of 2004, hidden bombs killed 192 commuter rail 
passengers in Madrid, Spain. Even more recently, last July 
suicide bomb attacks on the London Underground and buses killed 
56 people. Transit systems are particularly vulnerable to 
attack because they have open access with frequent stops and 
transfer points, and serve high concentrations of people in 
crowded areas.
    The threat is very real, but it is very challenging to meet 
this threat. Federal funding for transit security has not been 
particularly robust. Over four years from budget year 2003 
through 2006, Congress has appropriated only about $387 million 
to the Department of Homeland Security for transit security 
grants.
    In the United States, there are 9.5 billion passenger trips 
on transit annually. This means that we have averaged over 
those four years only about one penny of Federal funding for 
security per transit passenger trip. Compare this to aviation, 
where the average Federal security investment is about $9 per 
airline passenger.
    However, the public transportation industry has not been 
passively waiting for the Federal Government to save the day. 
U.S. transit agencies have invested more than $2 billion of 
their own funds for enhanced security measures. Even with this 
extraordinary local investment, transit security activities 
still are not being adequately funded. The American Public 
Transit Association estimates that there is a total transit 
security funding need of $6 billion.
    In addition to providing an appropriate level of funding 
for security improvements, we must ensure that the Federal 
agencies charged with oversight of the safety and security of 
these public transportation systems have a clear plan for the 
best possible protection against and response to any deliberate 
harm, whether the threat is from international terrorists or 
from domestic sources.
    SAFETEA-LU required the Federal Transit Administration and 
the Department of Homeland Security to develop and execute a 
transit annex to the two departments' memorandum of 
understanding which the agencies jointly issued in September of 
2005. The annex spells out in some detail the roles and 
responsibilities of the Federal Transit Administration, the 
Department of Homeland Security Office of Grants and Training, 
and the Transportation Security Administration. Each agency has 
a complementary role to ensure that transit agencies and their 
employees are prepared to effectively secure their systems, 
protect their passengers, and respond to any threat or actual 
incident.
    This Subcommittee held a similar transit security hearing 
in June, 2004. Shortly thereafter, Chairman Young, Mr. 
Oberstar, Mr. Lipinski and I introduced legislation to 
authorize transit and over-the-road bus security grants. The 
Committee reported H.R. 5082, the Public Transportation and 
Terrorism Prevention Response Act in September of 2004.
    Unfortunately, the bill was not considered by the full 
House before the end of the 108th Congress. It is likely that 
we will use what we learn here today to craft a similar bill 
authorizing general funds to be appropriated for these security 
grant programs.
    The Transportation and Infrastructure Committee has a very 
broad jurisdiction that includes every mode of transportation. 
Each of these modes have unique opportunities and security 
challenges. These differences need to be recognized by 
providing separate mode-specific transportation security grant 
programs. These unique modal operations and vulnerabilities 
also should be reflected in a security grant program that 
ensures that funds are allocated using a fair, risk-based 
methodology, with grant eligibilities that meet the needs of 
the industry.
    SAFETEA-LU directed the Departments of Transportation and 
Homeland Security to issue joint regulations to establish the 
characteristics and requirements for public transportation 
security grants. Today's hearing requests and update on the 
status of these regulations, which we hope will establish a 
consistent grant administration process.
    We look forward to the testimony of all six witnesses this 
afternoon. The first panel is governmental witnesses, including 
Ms. Sandra Bushue, the Deputy Administrator of the Federal 
Transit Administration; Ms. Tracy Henke, Assistant Secretary 
and head of the Department of Homeland Security Office of 
Grants and Training; and Ms. JayEtta Hecker of the Government 
Accountability Office.
    The second panel includes witnesses representing transit 
and intercity bus operators and labor.
    I thank all of you for being part of this hearing. I would 
like to express my appreciation for your staff and 
organizations for helping to prepare your testimony. We look 
forward to the interchange to follow that testimony.
    Now I yield to Mr. DeFazio for his opening statement.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for your 
past efforts which preceded my service as Ranking Member on 
this subcommittee, to better focus on the needs of public 
transportation and the security issues.
    I serve both on the Homeland Security Committee and on this 
committee. I have seen reflected in both venues what I feel is 
a lack of really critical assessment to put forward what we 
think are the real investment needs. It seems kind of like 
avoidance to me. After we had waited so long for the National 
Transportation Security Assessment last fall, we got something 
that, as I said at the time, I thought a graduate student or 
maybe an undergraduate student could have written in terms of 
its specificity. It was very, very vague. Yes, there are 
threats is about how you could summarize it.
    We can do better than that. We have the transit groups say 
that there is a $6 billion unmet need. I don't know if the 
number is that high. I would like to focus-in. But I know it is 
certainly a lot higher than the amount of money we have 
allocated and spent so far. I really, since my principal 
service on this Committee has been on aviation, I don't want to 
see that we adopt a tombstone mentality, which was prevalent at 
the FAA for a lot of years, which was that you don't wade into 
something and deal with it proactively; you wait until there is 
an incident and then you try and figure out how you might 
prevent future similar incidents, as opposed to getting ahead 
of the issue.
    Here, we certainly have had some wake-up calls with what 
has happened in London, what happened in Madrid. I have to say, 
from my service on both committees, I don't feel that we have 
put in place the measures I feel are necessary to prevent a 
similar incident here. I am hoping to be disabused of that 
today. I hope to hear about other things going on I don't know 
about, or grand strategies and plans that are going to come 
forward.
    I know it is always difficult serving, particularly in this 
Administration, to ask for public money to meet public needs 
and security needs, but I always ask everybody to be honest 
despite what the people over at OMB tell you you can have, on 
what you think a realistic number is.
    So I look forward to the testimony and hope to be 
enlightened, and hope to be reassured, but I doubt that will 
happen.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    If the audience in the hearing room notices a kind of a 
mirror-effect, Bob Roe is on both sides of the hearing room and 
he has the same red tie on here that he has there. We are 
honored by the presence of our former chairman. Thank you for 
being here.
    [Applause.]
    Mr. Petri. Mr. Oberstar?
    Mr. Oberstar. Thank you for holding this hearing, Mr. 
Chairman.
    I join in the welcome of our former Chairman Bob Roe, who 
was such a devotee of all the issues under the jurisdiction of 
this committee, and continues to be their advocate.
    Transit and ports continue to be the stepchildren of 
security in America. We are not investing what we need to do, 
what the law that this committee initially prepared, reported 
out, moved through the House and through conference on port 
security, the five major elements are not fully anywhere near 
fully funded.
    And transit, the transit systems of America responded on 
their own, without any infusion of Federal funds right after 
September 11, by installing in the intercity bus sector, 
Greyhound specifically, but others as well, putting in security 
systems that they funded without waiting for any Federal 
mandate or directive, and so has our transit.
    Transit is the fastest-growing sector in transportation in 
America. We are adding a million new transit riders a day, 10.5 
billion transit trips last year. Yet we are not investing in 
the security of our transit systems as we ought to be doing. 
Every day, two million Americans take their shoes off at 
airports; four million shoes come off at America's airports. 
What are we doing to keep our bus and transit and rail systems 
safe? Nothing, comparatively. Nothing except what the transit 
systems have done.
    Worldwide, 42 percent, nearly half of all terrorist attacks 
have been against transit systems, not against aviation. We 
need to do vastly more than we are doing now, and I hope that 
through this hearing we will prod action by the Administration 
to invest in the security of our domestic internal transit 
systems.
    Thank you very much, Mr. Chairman.
    Mr. Petri. Any other opening statements? Mr. Blumenauer?
    Mr. Blumenauer. Thank you, Mr. Chairman.
    I appreciate what our Ranking Member, Mr. Oberstar, said. 
This has been a deep concern of mine. You might recall I had 
legislation for transit security in advance of 9/11. Provisions 
of that bill were picked up and dropped in their entirety in 
the Patriot Act. It has been something that has continued to 
concern me. There is something like seven times as many people 
who are on transit every day in our Country, including some of 
our most vulnerable members of society, people who are least 
capable of reacting in the event of an incident, be it 
terrorist or accident or anything else.
    Mr. DeFazio referenced the vast disparity between the 
resources that are lavished and, as a number of us are in these 
lines, there are a number of our shoes that hit the ground 
every week, we see up close and personal, maybe in some cases 
we are going further than we need to do in terms of some 
aspects of airport security, but we are certainly not giving 
the type of time and attention and resources to dealing with 
the millions of passengers and the hundreds of thousands of men 
and women who work to make these systems function.
    I would hope that in the aftermath of these discussions, we 
can look very hard at the resources that the industry needs; 
that we can be a better partner with them in terms of equipment 
and training; and there are things that they are doing for 
society as a general proposition that merit consideration of 
further public investment.
    We look at Katrina and we look at Hurricane Rita. We are 
not just talking about terrorist acts. We are looking at how 
transportation systems can prove vital to help cities respond 
to natural disasters. If Rita had come a little harder, a 
little sooner, that picture of the tens of thousands of 
Houstonians in a parking lot some 30 miles long, pushing their 
cars in the heat, running out of gas, dealing with making 
transit systems work are a critical part of emergency response 
in urban areas.
    I think we are going to be looking at that as we rebuild 
New Orleans at some point, but it is part of the basic 
infrastructure.
    So I look forward to hearing from our witnesses, but I hope 
that this will help shape our committeeFEs work to think about 
ways that we make sure that the systems themselves are 
functional, the communications work, the training that we know 
what needs to happen, and that we think of it in the broader 
context of not just protecting people who are transit riders, 
but thinking about transit system, intercity bus system, rail, 
as part of the defense mechanism that our communities have. I 
think it will be money and time extraordinarily well spent, and 
I look forward to this hearing as a way to launch further 
consideration for things we can do to make a difference in the 
future.
    Thank you very much.
    Mr. Petri. Thank you, Mr. Blumenauer.
    Now we turn to our panelists. As you know, your written 
statements are a part of the record of this hearing and we 
invite you to summarize those statements in approximately five 
minutes. We turn to the first member of the panel, Ms. Sandra 
Bushue, Deputy Administrator, Federal Transit Administration.

 TESTIMONY OF SANDRA K. BUSHUE, DEPUTY ADMINISTRATOR, FEDERAL 
 TRANSIT ADMINISTRATION; TRACY A. HENKE, ASSISTANT SECRETARY, 
OFFICE OF GRANTS AND TRAINING, DEPARTMENT OF HOMELAND SECURITY; 
  JAYETTA Z. HECKER, DIRECTOR, PHYSICAL INFRASTRUCTURE TEAM, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Bushue. Thank you, and good afternoon Chairman Petri, 
Ranking Member DeFazio, and members of the Subcommittee.
    I am pleased to have this opportunity to testify on transit 
security. America's transit systems are dynamic, interconnected 
and composed of 6,000 local systems. Unlike airports, these 
systems are inherently open and therefore difficult to secure. 
At New York's Penn Station alone, more than 1,600 people per 
minute pass through its portal during a typical rush hour. This 
combination of open access and large numbers of people make 
transit systems an inviting target for terrorists.
    To help mitigate this risk, FTA has three strategic 
security priorities: public awareness, employee training, and 
emergency preparedness. Each of these provides focused benefits 
to the dynamic open nature of AmericaFEs transit network. As 
for public awareness, FTA developed Transit Watch. It is a 
program that educates passengers to be mindful of their 
environment and how to react should they see something 
suspicious.
    Employee training develops the skills of 400,000 frontline 
transit employees who are the eyes and ears of the transit 
network. Emergency preparedness programs build local 
collaborative relationships within communities that allow for 
quick and coordinated responses in a crisis. SAFETEA-LU 
mandates several steps that move transit security forward.
    In September 2005, FTA, TSA and now the Office of Grants 
and Training, signed the Public Transportation Security Annex 
and the DOT-DHS Security memorandum of understanding. The Annex 
identifies specific areas of coordination among the parties. 
The agencies have developed a framework that leverages their 
respective resources and capabilities. Using the Annex, which 
we have over here on an easel, is a blueprint. We have 
established an executive steering committee which interacts 
with DHS, DOT and transit industry leaders.
    This committee oversees eight project management teams 
spearheading the Annex's programs. The eight teams are: risk 
assessment and technical assistance. This team is using a risk-
based approach to transit security, working toward one industry 
model for transit risk assessments.
    Transit Watch in connecting communities. This team is 
expanding two FTA programs that foster public awareness and 
coordinated emergency response.
    Training. Employee training is vital and this team is 
developing new courses on timely security products such as 
chem-bio protocols and strategic counterterrorism for transit 
managers.
    Safety and security roundtable. The Annex team is working 
on direct stakeholder outreach. They are planning two events 
per year for the safety and security chiefs of the 50 largest 
transit agencies.
    Web-based national resource center. This group is 
developing a secure library site for information on best 
practices, grants, and other security matters.
    Emergency drills and exercise. This team is reinstituting 
the well-received FTA drill grant program and has updated it to 
incorporate DHS exercise program guidance.
    Annual plan and grant guidance. This team is developing the 
process for joint FTA, TSA and GNT review of regional transit 
security strategies which is a requirement for the Transit 
Security Program.
    And finally, standards and research, which focuses on the 
development of critical industry security standards. This 
includes such topics as standards for closed-circuit 
television, intrusion detection, and training, to name a few.
    Again, I reiterate, this is a blueprint. SAFETEA-LU also 
requires a joint DOT-DHS rulemaking for the Transit Security 
Grants Program. FTA has partnered with GNT and TSA to develop a 
notice of proposed rulemaking which we anticipate publishing 
soon.
    I would also like to point out that FTA supports security 
projects through its 5307 Urbanized Area Formula Grants 
Program. Under this program, transit agencies must spent at 
least 1 percent of their annual formula funds on public 
transportation security. As you know, in contrast to TSA's 
broad statutory authority for security in all modes of 
transportation, FTA's regulatory authority is limited. We do 
not have a dedicated security grant program.
    Historically, we have influenced transit agencies from 
security practices through training programs, guidance and our 
research program. Working with DHS, we will continue to use 
these resources to improve transit security.
    Mr. Chairman, Ranking Member DeFazio and members of the 
subcommittee, I want to assure you that FTA is using all its 
resources to strengthen the joint security initiative 
formalized in the September, 2005 Annex.
    In closing, we look forward to working with the Committee. 
Thank you for this opportunity, and I look forward to your 
questions.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Before hearing from the next panelist, Mr. Pascrell didn't 
realize we would be quite as efficient as we were, and was 
detained, but had an opening statement he would like to make.
    Mr. Pascrell. Can I present it, Mr. Chairman?
    Mr. Petri. Yes.
    Mr. Pascrell. Thank you.
    Chairman Petri, Ranking Member DeFazio, I thank you for 
holding a hearing on the status of our Nation's transit 
security. Many of us have talked about this for a few years 
now.
    There are 6,000 public transportation agencies that provide 
9.6 billion transit trips annually. Every day, more than 14 
million people take 32 million trips on public transportation. 
Algebraically, you know how much greater that is than those 
that use airplanes.
    As we have witnessed most recently in London and Madrid, 
many members from the Homeland Security Committee went to 
London and Madrid recently to examine preparations or responses 
to those problems. Transit systems are popular targets of 
terrorist attacks worldwide. All modes of public transportation 
have been frequent targets of attacks because they are most 
vulnerable.
    These attacks provide a grim reminder of the terror that 
can easily be carried out on American mass transit systems, but 
those of us in New Jersey who work on travel or travel into New 
York City on a daily basis are dependent on our Nation's public 
transportation system. We are keenly aware of the 
vulnerability.
    To their credit, transit systems have invested $1.7 billion 
in security activities since 9/11. New Jersey Transit has 
expanded its uniformed police force by nearly 80 percent, 
upgraded the training of many of those officers, provided 
passenger safety advisories, increased patrolling on more 
trains and stations, and around the facilities, and conducted 
aerial inspections of its infrastructure.
    However, with only 200 police officers and six explosive-
detection canine teams to protect and secure more than 3,000 
buses, 600 trains, serving 750,000 people every day, New Jersey 
Transit neither has the resources nor the budget to address 
these additional security concerns without undermining its 
traditional policing duties, and we can multiply this 
throughout the United States of America.
    The American Bus Association and the United Motor Coaches 
Association have teamed up to present a series of free security 
emergency preparedness planning. All of these critical actions 
bear costs that are not being adequately met through Federal 
funding.
    We have not made the necessary investment in improving the 
security of America's public transportation facilities. 
According to the American Public Transportation Association, 
transit security needs are both capital and operational at 
about $6 billion. Congress has invested a total of $387 million 
for the Department of Homeland Security transit security funds. 
This is about $97 million per year or less than one penny per 
transit passenger trip. If that makes sense to you, I will 
listen. If it doesn't make sense to you, then I want to have a 
good response to that one.
    Many on this Committee have spoken repeatedly over the last 
few years for greater prioritization to be assigned to transit 
security. Neither party is privy on this issue, both sides of 
the aisle.
    I look forward to hearing from each of the witnesses. Our 
Nation's transit systems must have the employee training they 
need and the funding they depend upon to maintain at least a 
baseline level of readiness.
    Mr. Chairman, you have been more than kind and I thank you 
for allowing me this opportunity.
    Mr. Petri. Thank you.
    The next witness is Ms. Tracy Henke, Assistant Secretary, 
Office of Grants and Training, Department of Homeland Security.
    Ms. Henke. Mr. Chairman, thank you. Ranking Member DeFazio, 
members of the Committee, I am pleased to have this opportunity 
to discuss the efforts of the Department of Homeland Security's 
Office of Grants and Training and the work of our partners to 
secure our Nation's transit systems.
    Since the terrorist attacks of September 11, 2001, the 
Department of Homeland Security has awarded more than $250 
million to date to secure our Nation's transit systems. This 
includes funding under our Urban Areas Security Initiative and 
beginning in 2005, a new standalone Transit Security Grant 
Program.
    The goal of the Transit Security Grant Program is to 
protect regional transit systems and the commuting public from 
terrorism, especially explosive devices and threats that would 
cause major loss of life and severely disrupt our Nation's 
transportation system.
    Over the past two years, Mr. Chairman, grants and training, 
working with our Federal, State and local partners, has refined 
this program to ensure that transit security grants are 
targeted at systems facing the greatest risk. With the input of 
the Federal Transit Administration, the Transportation Security 
Administration, Federal Railroad Administration, the American 
Public Transportation Association, the American Railroad 
Association and numerous other groups, we have made a number of 
enhancements to the Transit Security Grant Program and have 
continued to improve our collaborative efforts.
    For instance, recognizing the critical importance of 
regional or multi-jurisdictional approaches to security, we 
require grantees to develop regional strategies for 
coordinating security measures across jurisdictional 
boundaries. We also require grantees, where appropriate, to 
coordinate transit security plans with Amtrak to ensure 
integrated security planning among all transportation partners. 
We require grantees to ensure that transit security plans mesh 
with the homeland security strategies developed by the States 
and the urban areas.
    Looking at lessons learned from the incidents in Madrid and 
London, we prioritize efforts for preventing, detecting and 
responding to attacks, using improvised explosive devices or 
IEDs. This fiscal year, the Transit Security Grant Program was 
further refined to require the alignment of regional transit 
security strategies with the interim national preparedness goal 
and its seven national priorities for achieving national 
preparedness. The interim national preparedness goal is 
designed to help responders at all levels understand what 
abilities they need to respond to terrorism or other major 
incidents.
    Our Transit Security Grant Program is complemented by two 
initiatives designed to improve security in specific 
transportation sectors. One, our Intercity Passenger Rail 
Security Grant Program provides funds and technical assistance 
to improving security along the most highly traveled passenger 
routes in the Nation: Amtrak's Northeast Corridor and its 
Chicago hub.
    This year, we are expanding the program to Amtrak's West 
Coast operations. We will use a portion of the $8 million 
Congress made available for 2006 to assess the security of 
Amtrak's operations in key urban areas such as Seattle, Los 
Angeles and San Diego. These assessments will, in turn, guide 
the further expenditure of intercity passenger rail funds.
    Second is our Intercity Bus Security Grant Program which 
enhances security for the millions of Americans who travel long 
distance by bus each year. Grantees are selected by a national 
review panel in coordination with the Transportation Security 
Administration, the Federal Transit Administration, and the 
Federal Motor Carrier Safety Administration. The 2005 program 
focused on passenger and baggage screening and facility 
security enhancements to prevent and detect IEDs, as well as 
chemical, biological, radiological and nuclear devices.
    In 2006, we are working to institutionalize a risk-based 
approach to intercity bus security funding. As part of this 
effort, we are requiring grantees to develop security and 
emergency preparedness plans using a template developed by TSA 
and the American Bus and the United Motor Coach Associations, 
under a grants and training grant.
    We are also working to coordinate initiatives under our 
Intercity Bus Grant Program with Highway Watch and TSAFEs 
Corporate Security Review Program.
    Interagency coordination is the hallmark of all the grants 
and training programs. It is imperative to how we do business, 
especially transportation security programs. To further 
facilitate that interagency communication and cooperation, the 
Department of Homeland Security and the Department of 
Transportation entered into that memorandum of understanding in 
September of 2004, as mentioned previously by my partner here 
at the table from the Federal Transit Administration.
    In September of 2005, this MOU was expanded to identify 
specific areas of coordination, including citizen awareness, 
training exercises, risk assessment and information sharing. As 
part of this effort, an executive steering committee was 
created with representatives from the FTA, TSA and Grants and 
Training to identify and close gaps in our transportation 
security programs.
    Finally, Mr. Chairman, we are working with the Department 
of Transportation to develop final regulations for transit 
security grants as required under Section 3028 of SAFETEA-LU. 
Through these efforts, the Administration is working 
collaboratively to ensure the security of our Nation's transit 
systems and to protect those who rely on these vital 
transportation services. We appreciate this Committee's 
continued support for these critical initiatives and we look 
forward to working with you, Mr. Chairman and members of this 
Committee, on all of these important efforts.
    Thank you, Mr. Chairman, for the time, and I am happy to 
answer questions at the appropriate time.
    Mr. Petri. Thank you.
    Now, a familiar witness before this Committee, Ms. Hecker, 
Director for the Physical Infrastructure Team, Government 
Accountability Office, GAO. Please proceed.
    Ms. Hecker. Thank you, Mr. Chairman, Mr. DeFazio and other 
members of the Committee. It is really a pleasure to be here to 
focus on some key transit security issues.
    I think many of you who have spoken talked about the 
inherent vulnerability and attractiveness of this mode. Its 
openness, its accessibility makes it a clearly natural target, 
The large gatherings and concentration of people, but also the 
enormous number of stakeholders really add to the complexity of 
trying to improve the security of this mode.
    One of the reasons we have been concerned and done at least 
four major studies in this area is how important it is to 
target funds to maximize and optimize the impact and the 
effectiveness in reducing the risk and improving the security 
of this very inviting target.
    Basically, there are two key points that I will make today. 
One is based on the fact that we have done a worldwide review 
of transit security, looking at 13 systems internationally and 
close to every single system domestically. In comparing them, 
we basically found that are a lot of similarities in what 
different transit operators are doing. We identified several 
areas of relatively unique and distinct actions that foreign 
countries, foreign operators were taking, and we have 
recommended that they be examined for their potential 
applicability domestically. I will talk a little bit about what 
we learned and outline that for you.
    The second area is basically about the coordination area. 
GAO has completed a report about six months ago, and in that 
report we found notable gaps in coordination by Federal 
agencies within the Department of Homeland Security and between 
the Department of Homeland Security and its various elements, 
and the various units within DOT. While some measures have 
clearly been taken and our information admittedly is only up to 
date as of when our report came out six months ago, we continue 
to recommend very vigorous oversight by this committee of the 
progress in this area because of the importance of improved 
coordination.
    On the first area about the similarities and differences, 
it was really an extraordinary experience to have the 
opportunity to visit so many different operators, 32 in this 
Country, and as I said, 13 overseas. A lot of the key elements 
really are very common. At the heart of it is really risk 
assessment. That really is essential. With the fundamental 
vulnerability and attractiveness of this mode, it has got to be 
targeted. You can spend an infinite amount of resources and it 
will still be vulnerable. So to clearly target what the 
priorities need to be is the foundation of all major efforts 
worldwide.
    Another is the customer awareness program. You see it, you 
say something. Is this yours? There are a whole number of 
different types of initiatives and it is really engaging the 
passenger.
    A third is the use of technology, particularly cameras, but 
even smart cameras. That is really the best of the application 
in this area. It is not just hundreds of cameras, but it is 
cameras that actually look for some aberration, which even 
could be something never moving, which could be a package that 
was left. So there are smart cameras that are being used and 
really are representing an efficient tool for targeting scarce 
resources.
    A fourth areas is tightening access controls, particularly 
for employee access, and getting better identification.
    So in these areas, there really were not notable 
differences. In contrast, however, there were four areas where 
we found foreign government operators had some relatively 
distinct and unique practices. The first one was covert testing 
of employee actions. There would be rules, requirements, 
procedures, and they would basically test their employees and 
give frequent feedback so there would be an automatic 
opportunity to review how well people understood the procedures 
and how well they really worked. So covert testing was in use 
in a couple of places.
    Random screening of passengers and baggage, everyone 
recognized that this was not ever going to be able to replicate 
what is done in aviation, but some kind of deterrence that on a 
strategic basis does randomly check, and this was done in both 
New York and Boston during the conventions. So we have had some 
use of it here, but we have not systematically studied how it 
can be used, where it can be used and with what kinds of 
triggers and challenges it can be used without shutting the 
system down.
    One of the most important things that we saw overseas was a 
centralized research or a testing and information clearinghouse 
on technology. Basically, operators are bombarded all the time 
by marketers and people trying to sell them different 
technology, and they have very little independent information. 
Most of the operators really were crying out for more 
assistance from the Federal Government in providing a 
clearinghouse on information about the new technologies.
    Very quickly on the coordination area, as I mentioned 
earlier, GAO found very poor coordination in several critical 
areas in this important area. One was in the area of risk 
assessment. Basically, there were active measures going forward 
by one part of the Department of Homeland Security, and other 
measures going forward in another part, and really not 
effectively coordinated with all the stakeholders, with FTA. 
This is a real gap because this is the foundation of strategic 
investment of resources.
    The other was emergency guidelines, rail security 
guidelines that were issued just two months after the London 
attacks. Those guidelines lacked very effective stakeholder 
input. Nearly all of the operators we talked with were very 
concerned about it. They felt the standards were unclear. There 
were no criteria for inspections or enforcement. It did not 
build on best practices. And most severely, it even had 
inconsistencies with standing FRA regulations.
    In conclusion, we think there are important initiatives 
overseas that we could learn from. We have a recommendation 
that the departments evaluate them. As of our last 
understanding, there was no action on this. In the coordination 
area, we have not had an opportunity to systematically evaluate 
the new initiatives, but we would continue to recommend 
rigorous oversight by this Committee on the quality and 
effectiveness of coordination.
    Thank you, Mr. Chairman and other members. I would be 
pleased to answer questions.
    Mr. Petri. Thank you. We will turn to questions.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Ms. Henke, you have essentially, as far as I could follow 
in your testimony, really kind of talked about the way things 
were. I guess I would like you to talk about the ways things 
are going to be.
    As I understand the Targeted Infrastructure Protection 
Program, it is essentially going to replace the program that 
you are talking about, which has been used recently in terms of 
apportioning funds to needs, to transit systems and others. And 
now we are going to have, as I understand the President's 
proposal, one large, well not so large, one inadequate pot of 
money for which ports, transit, rail and trucking will all 
compete.
    Can you kind of look at it and tell us, because what you 
told is how it has worked. How is that going to work in the 
future?
    Ms. Henke. Congressman, if enacted and if the Congress 
moves on the President's proposal as submitted, the President 
has proposed the Targeted Infrastructure Protection Program. 
The President proposes this in recognition, one, of limited 
resources; two, of the fact that the threat that this Nation 
faces is ever-changing; and three, that to address that threat, 
we need to have as much flexibility with resources as possible 
so we can prepare based upon most recent intelligence 
information, the risk assessments, et cetera, that we have, and 
make certain that we are working to protect the Nation from the 
next threat and the next attack, not the one that just recently 
occurred, as we continue efforts across the Country, 
recognizing our shared responsibility in securing the Nation.
    So once again, the TIP program would be a comprehensive 
risk assessment. It would look at where the threats are. It 
would look where the consequences are and the vulnerabilities 
are, and then allocate the limited resources available to those 
highest risk areas.
    Mr. DeFazio. Well, great in theory, but I have yet to see 
comprehensive risk assessment, particularly in the evaluation 
we received last fall, and I read both the classified and the 
unclassified version. The classified wasn't much different than 
the unclassified.
    I didn't see any quantification there in any meaningful way 
to compare a threat in a port to a threat against mass transit 
and rail, versus aviation. I mean, they couldn't even compare 
within categories, and now we are going to create, somehow we 
are going to say, okay, we are now going to look at, and the 
ports estimate they need $6 billion. The transit folks estimate 
they need $6 billion. I don't know what trucking needs.
    So let's, you know, let's just round it out to $15 billion. 
The President is proposing $600 million this year. So you know, 
we are coming in at 5 percent of what we need. I am just 
wondering how we are going to apportion that pathetically small 
amount of money among so many needs, and how we are going to 
meaningfully compare the threat to the ports and nuclear or 
radiological devices where we are failing, to the threats in a 
transit system which doesn't have interoperable communications, 
and has other vulnerabilities, to potential attacks against the 
hazardous waste-carrying trucks or the use of hazardous waste-
carrying trucks as weapons of mass destruction.
    I just am really puzzled. I understand sort of in some sort 
of an optimal rule we would be able to do that. I just fear 
that losing the focus here, losing a focus of, okay, we have an 
inadequate amount of money, but here is the way we are going to 
apportion it. This part is going over into, you know, transit 
other than aviation; this part is going over into ports. And 
then within that, we will determine what our priorities are in 
some way, and then we will apportion that inadequate amount of 
funding.
    But to suddenly say in the whole world, we are going to 
compare all that. I mean, what system have you developed? I 
guess maybe I will ask Ms. Hecker. Are you aware of a system 
they have developed to meaningfully compare among the modes and 
somehow go assess if we have this giant pot of money, how that 
money would be apportioned? Are you aware of any system like 
that?
    Ms. Hecker. Not as of the time we completed our report. 
There is merit in that, but I think there is also merit, as 
your question implies, in some base-level of continuity of 
support for a minimum level of security within individual 
modes. The uncertainty or the flexibility is something that 
really would raise some questions about the ability of 
operators to really make plans over time. These, of course, are 
publicly subsidized operators. These are not profit-making 
institutions.
    Mr. DeFazio. Okay. So Ms. Henke, has something been 
developed in the last five months we are not aware of that 
would help us deal with this new program? What is it called, 
TIP, or whatever?
    Ms. Henke. Targeted Infrastructure.
    Mr. DeFazio. Right, TIP. Yes.
    Ms. Henke. TIP. Sir, the department has made great strides 
in its risk analysis ability. I will be honest with you. I have 
been there for three months. I am not aware of all of the work 
that has been done to date. I can tell you that we have made 
significant progress.
    In our risk analysis, we are looking at individual assets. 
We are looking at geographic areas. We are taking into account 
as it relates to these different systems, for instance on 
transit, we are looking at passenger numbers. We are looking at 
route miles. We are looking at once again most recent threat 
information. We are working with the partners in the field to 
gather the data points to ensure that we have that risk 
assessment capability to move forward with the PresidentFEs 
proposal.
    Mr. DeFazio. Well, I have yet, serving on both committees 
of jurisdiction, to hear that there has been anything 
meaningful developed. Perhaps they are just withholding it from 
Congress. I don't think there has been, so I am very skeptical 
about merging. I mean, it is a way to blur the inadequacy of 
the funding is to say, well, we have a $600 million pot, but 
now it is actually addressing a larger need, as opposed to say, 
well, we are only going to put $150 million in to ports and we 
are going to put $180 million here in that.
    I really doubt that we can meaningfully choose among those 
modes with such an inadequate amount of money, but I won't 
belabor that point. In a more lighthearted way, I just have a 
question, if you could tell me who replaced Mother Teresa. I am 
curious.
    Ms. Henke. No one yet, sir.
    Mr. DeFazio. Okay. So you are open for suggestions?
    Ms. Henke. Completely open for suggestions.
    Ms. DeFazio. Okay, all right.
    Ms. Henke. This is an issue to help make certain that 
people truly understand in terms that people, when we are 
trying to explain what the Federal Government does, and 
sometimes when we are trying to explain what the Office of 
Grants and Training does, it is kind of complicated. And so as 
a way to boost morale and as a way to involve all the 
employees, and way to come up with how to explain what the 
Office of Grants and Training does, we determined this was a 
way to do it. But no, we are open for suggestions, sir.
    Mr. DeFazio. Okay. Great. So if anybody on the Committee 
has a suggestion, you could be in line for a free lunch. Thank 
you.
    Mr. Petri. Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman.
    I guess I really just have one question. It is kind of a 
broad question. I will just address it to all three of you and 
whoever wants to answer it. I am very interested in this 
because I had two young women from my District who were injured 
in the London bombings and received a lot of national publicity 
from their experience in the hospital and so forth. And then I 
went with a group of members at one time, not long after the 
Madrid bombings, to a memorial that they had set up over in 
Spain about those bombings.
    I heard Secretary Chertoff say something that made a lot of 
sense in a speech he gave one time. He said we have to make 
people understand, or have people understand that we cannot 
protect against every conceivable harm at every place at every 
time. I remember two or three months after the Department of 
Homeland Security was created that I was driving in one morning 
to work here and I heard on the NPR news one morning that the 
department already had, and they told what the number one, I 
don't remember the exact number, but it is like 3,782 ideas for 
security devices, and probably there are thousands more 
already.
    What I am getting at, the odds, all these incidents are 
terrible, but the odds are still extremely low. I mean, you are 
more likely to be struck by lightning than you are to be killed 
by a terrorist. How do we achieve balance? How do we do what is 
reasonable for security without going ridiculously overboard or 
being wasteful about it? And then secondly, where are we 
getting the most bang for our buck? What do we really need to 
do that we are not doing now, as opposed to just doing pie-in-
the-sky type things?
    Ms. Henke. Sir, if I may? One of the things that Secretary 
Chertoff and I have discussed, and other leaders at the 
Department of Homeland Security, is that we do need to be 
looking at manmade terrorist attacks, as well as natural 
disasters. That is what we need to do.
    When we talk about how we are proceeding and what we are 
doing in these communities and States across the Country, it is 
not one or the other. What we are doing is developing 
capabilities, capabilities to respond whether it is a tornado 
going through my home State of Missouri; whether it is a 
terrorist attack somewhere in the Country; whether it is a 
hurricane; the New Madrid fault zone; an earthquake in 
California, et cetera. We are developing capabilities.
    The department has identified, along with the national 
preparedness goal, the national priorities, 37 targeted 
capabilities. The GAO and other organizations have validated 
that those capabilities are necessary regardless of what the 
event is, regardless of what we are looking at.
    So what we are doing is preparing the Nation overall, 
regardless of what that is. It gets to citizen preparedness. 
That gets to medical surge issues. That gets to chemical, 
biological, radiological, and nuclear, et cetera. Investing 
resources and improving those targeted capabilities throughout 
the Country makes us better as a Nation. It will hopefully make 
us safe as a Nation.
    I agree, sir, with what the Secretary said and what you 
were alluding to. Can we necessarily ever say we are safe 100 
percent? Likely, no. Can we say that we are safer and can we 
work to become safer? Yes, we can and we can do that by being 
better prepared, and we can be better prepared by addressing 
those targeted capabilities and investing our resources in 
those targeted capabilities throughout the Country.
    Mr. Duncan. And we also want to make sure that we are 
spending our money wisely and on things that provide real 
security, as opposed to going with some company that is well-
connected or has high-level former government employees in it, 
or well-connected lobbyists and they are going to make a lot of 
money, but what they are providing is not that valuable from a 
security standpoint.
    Ms. Henke. Sir, if I may, on something else at the 
Department of Homeland Security, specifically at Grants and 
Training, we have, and I am going to apologize because I am not 
going to remember all the alphabet soup. We have something 
called SAVER, though, and that deals with equipment, for 
instance.
    As you pointed out, there is a tremendous amount of 
equipment out there. There is a tremendous amount of 
individuals who have ideas on how to move forward. The SAVER 
Program takes some of this equipment, puts it in the field, and 
it is tested by first responders themselves. And then in 
essence, we issue a consumer report on that specific piece of 
equipment.
    We now are going through an internal measurement of 
determining how many entities are utilizing those reports, that 
information, before they make a purchase. We are finding, 
because the program is relatively new, as is the Department of 
Homeland Security, we are finding that entities across the 
Country are using these reports to help guide their decision 
making on equipment purchases. So that is a step that we are 
making and taking forward.
    In addition to that, we understand the need for items such 
as identifying best practices. One of the things that we are 
working on with the Federal Transit Administration is the 
Transit Resource Center that will provide information, that 
will help identify those best practices, that will help guide 
decisions that our partners in the field, our stakeholders in 
the field are making every single day. So we are making 
headway.
    Mr. Duncan. Well, my time is up, but let me just say very 
quickly, you know, I have tremendous respect and admiration and 
appreciation for those who serve in the military, but the other 
side is that all these defense contractors hire these retired 
admirals and generals, and then they come back and they get us 
to buy all ths defense hardware and some of it is good and some 
of it is really wasteful. I don't want to see the Homeland 
Security Department become that way or spend whopping amounts 
of money just because something has the word ``security'' 
attached to it.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Blumenauer?
    Mr. Blumenauer. Thank you.
    Ms. Hecker, I noted that you have, in addition to looking 
at 32 American systems in metropolitan areas, you did a review 
of a dozen or some such number systems overseas. I wonder if 
you could, you referenced in your testimony that were some 
things that you saw that could potentially be employed, that 
might have beneficial effects, random searches and what not. I 
just wondered if there was one system in the review that you 
and your team conducted, if there was one foreign system that 
stood out, that had elements that seemed to be balanced and 
effective?
    Ms. Hecker. We didn't evaluate the performance and 
effectiveness of each one, but on a personal basis and on 
observation about the comprehensiveness of the effort and the 
risk-based focus and the care, I would say two stood out for me 
personally. One was London, which we visited before the 
bombings; and another one was Hong Kong. London had been a 
target for a decades because of the IRA. It was a very 
comprehensive and genuine realization that they really needed 
to focus on what could be done. While they had a very 
comprehensive set of practices, education and information and 
technology, at the end of the day they really couldn't prevent 
those attacks.
    They did, however, provide the tools to arrest the 
perpetrators, so it was very profound and it did allow tools to 
provide the response capability and mitigate some of the 
problems in an area when you have good information and good 
communications. So it both typified excellent risk assessment, 
strategic investment of resources, but vulnerability still at 
the end of the day.
    Hong Kong and Singapore and Japan, actually, all of which I 
visited, they are all privatized and it was extraordinary how 
seriously they take their investment in security. It is a 
bottom line issue. If the system is interrupted, they lose 
revenue. So the strategic focus of each of those operations in 
many ways was extraordinary, how it permeated the organization. 
There isn't just a security officer, but it was part of the 
operation of the entire business, and very, very, very careful 
consideration of what made sense. A lot of Mr. Duncan's point 
about that you don't just throw money at things, you make 
strategic decisions.
    Mr. Blumenauer. Right. Well, I guess in following that up, 
we are looking here, in terms of the Committee's jurisdiction, 
just as it relates to transit, a very rich mix of public and 
private agencies. Some are metropolitan-focused. Some are 
statewide. Some are intercity private. And we are talking about 
hundreds of thousands of men and women who make these systems 
work.
    Your thoughts about what should be done to help these 
disparate operators with different levels of sophistication, 
equipment, capitalization, to enable them, that we have a 
minimum threshold of training and safety procedures. Do you 
have any thoughts on that, recommendations, observations?
    Ms. Hecker. That is such an important question. I hesitate 
to present that somehow I have a simple answer.
    Mr. Blumenauer. You have another minute of my time.
    [Laughter.]
    Ms. Hecker. I think it was very impressive, the leadership 
and initiative that FTA took after 9/11. I think there was 
really a collaborative approach with industry to really target. 
There was very limited authority, very limited resources, but 
there was a very, very targeted and collegial approach.
    I think when both TSA was formed and then ultimately 
transferred over to DHS, as I have made clear in my testimony, 
I think there are really enormous challenges in coordination. 
FTA is the face of the Federal Government to the transit 
community, and a constructive face. They don't just give out 
money willy-nilly, but they understand the diversity of the 
business, and having the lines of communication. These all 
sound good, but again I would say these cooperative 
relationships with the true security focus and expertise of 
DHS, but recognizing that you have the transportation expertise 
and communication within DOT in making those partnerships work 
is actually vital.
    Mr. Blumenauer. Thank you.
    Mr. Chairman, I see my time has expired. I would hope that 
part of what we may be able to do, following up on what you 
have done with this hearing here today. We have in the audience 
people who represent the Public Transit Association. We have 
private bus operators. We have people who represent the 
employees, ATU, and our being able to drill down on pursuing 
some of these questions and trying to convene.
    I have great sympathy for FTA, which is the Federal 
Government's place for mass transit, but people are surprised 
to find out what a small agency it is. I must say, some of our 
colleagues in the appropriations side of the equation I think 
have had a different view about equipping and providing the 
tools for just day-to-day FTA management, let alone things like 
this.
    I think, Mr. Chairman and Ranking Member, that there would 
be a great service played if there was a way for us to continue 
this conversation, make sure that some of the things we have 
authorized don't get sideways in the appropriations process. We 
have that continuing tug-of-war.
    Because I just feel that this is a massive potential 
problem. I fear that there will be an incident and I would hope 
that we are not sort of caught overreacting or swinging the 
other way, but be able to work with these folks to sort of look 
at resources, look at making sure that Congress is coordinated 
and help move this conversation forward.
    Thank you.
    Mr. Petri. Thank you.
    Mr. Sodrel, any questions?
    Mr. Sodrel. I don't have any questions at this time, Mr. 
Chairman. Thank you.
    Mr. Petri. Thank you.
    Mr. Cummings?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Bushue, you know, I was just wondering, has the FTA 
developed any guidelines for security systems that would come 
under the New Starts projects?
    Ms. Bushue. We do not have the statutory authority to put 
out any type of regulatory efforts in that regard. We work very 
closely with the Department of Homeland Security in doing that. 
The New Starts Program is really an altogether different 
program. It does focus on construction and our grantees are 
very much looking at security. We do require that they do 
provide some kind of security perspective in their proposals, 
but it is not that we mandate it.
    Mr. Cummings. The reason why I ask is it seems to me we are 
doing New Starts. It seems like the ideal time that if we have 
technology new and more effective and efficient technology 
coming into play every day that we would be looking at those 
kinds of things.
    Ms. Bushue. The transit industry is a really take-control 
industry. They are doing so much of it themselves. For example, 
rail cars now are equipping themselves with video cameras, as 
well as buses. So that activity is certainly occurring.
    I also would like to state that they can use their formula 
money for these security upgrades. That is definitely allowed.
    Mr. Cummings. Now, this whole issue of the urbanized area 
formula, that 1 percent.
    Ms. Bushue. Yes.
    Mr. Cummings. How long has that been in effect?
    Ms. Bushue. I think a year, two years? It goes back to 221. 
Excuse me. Like my colleague at the Department of Homeland 
Security, I have been at FTA for three months.
    Mr. Cummings. No problem, no problem.
    I was just wondering, and maybe you may have to get back to 
me on this, I was wondering if FTA or DHS, I mean, if you have 
any information with regard to compliance, whether the transit 
agencies, are there any that are out of compliance, or are they 
in compliance. Sometimes I think you can have something a 
requirement like that, and people don't consider it important. 
And the reason why I think they don't consider it important is 
because they don't think anything is ever going to happen. I 
was just wondering, do you have any information with regard to 
that? I see your staff jumping up and down back there.
    [Laughter.]
    Ms. Bushue. Well, we track it. And again, the Federal 
Transit Administration, we don't regulate security, but we do 
track it, sir.
    Mr. Cummings. What has your tracking shown? I guess what I 
am concerned about, when we first were dealing with homeland 
security right after 9/11, there were all kinds of reports that 
a whole lot of money was spent, not necessarily in this area, I 
mean generally, where we spent a lot of money ineffectively and 
inefficiently, trying to deal with problems.
    I am just trying to make sure that we are dealing with the 
taxpayers' dollars in an effective and efficient manner. I 
don't want to give taxpayers and transit riders a false belief 
that they have certain security that they don't even have. I 
guess that is why I am so concerned that if we are tracking, it 
would be wonderful for us to know how those dollars are being 
spent.
    Another reason I am concerned about it is I like the idea 
of best practices, if there are practices that are working in 
certain places, or if we have seen certain security procedures 
put in place or equipment, and then have had some situations 
where it has been shown that they have proven to help keeping 
people safe, I think we need to know about those things. 
Because it seems to be a project, ever evolving. That is why I 
asked the question.
    Ms. Bushue. I appreciate your comments. Let's get back to 
you on that 1 percent and let us get back to you on what we 
find.
    Mr. Cummings. All right.
    Ms. Hecker?
    Ms. Hecker. I actually wanted to add, in our report one of 
the things we noted is that FTA is actually responsible for 
verifying that agencies are complying with the requirement for 
security improvements in the urban area formula funds, and is 
authorized to withhold funds if agencies are found no in 
compliance. We found that FTA had never in fact withheld any 
funds.
    I might say also, one of the initial observations we have 
had about the Annex on transit security and the coordination is 
there are 100 new inspectors over at DHS, but there are FTA 
safety inspectors and there are FRA safety inspectors, and the 
coordination and the relationship and the focus and the 
strategic use and integration in the use of those resources is 
something that we are concerned about.
    Mr. Cummings. Just lastly, I know my time is up, but I 
guess my concern is that when you say no funds have been 
withheld, it sounds like you are also implying that just 
because no funds have been withheld that does not necessarily 
mean that everybody has been doing what they are supposed to 
do. It may very well be that somebody was asleep at the switch 
and did not withhold funds when they maybe should have been 
withheld.
    I don't want to be in a situation five years from now where 
some incident happens and then we say that we didn't do what we 
were supposed to do. It sounds like there may be a question of 
coordination, and if that is the case, I think we need to make 
sure we address that.
    Ms. Henke. If I may, sir? Just to add one thing, one thing 
that we are doing, once again collaboratively and working with 
our partners on, is making certain that they have security and 
emergency preparedness plans at the regional level for these 
jurisdictions. And that those plans then provide us an ability 
to then measure, from a DHS perspective, working 
collaboratively with our partners.
    We have a regional approach. We develop security and 
emergency preparedness plans. And then, from the reporting 
information, the programmatic reporting in, financial 
reporting, we will then be able to track the measurement and 
the progress made and identify those best practices that can 
then be incorporated in the Transit Resource Center that will 
be available.
    Mr. Cummings. Thank you very much.
    Thank you, Mr. Chairman.
    Ms. Hecker. Mr. Chairman, can I just add one small point, 
because I think the question about New Starts was an extremely 
important one. As a Country, this Committee, as a Country, we 
spend multiple billions of dollars a year in supporting the 
development of new systems. In fact, one of the things we did 
find looking abroad is that there was a much more systematic 
effort both in new investments and in just upgrades, to secure 
systems, and sometimes not even technology, just removing 
obstructions and improving the line of sight.
    So it is a very obvious and important area and an 
opportunity. If FTA believes they don't have the authority to 
really follow up on this, it may be an area worth further 
exploration on this Committee, given the significance of the 
public funds involved.
    Mr. Petri. Thank you.
    Mr. Pascrell?
    Mr. Pascrell. Ms. Hecker, thank you all for your service.
    I am very disturbed whenever we talk about the chances of 
this happening. If you were to ask people before 9/11 of the 
chances of this happening, we cannot protect America with that 
philosophy, number one.
    Number two, I want to commend the transportation people of 
this Country who have invested close to $2 billion. When you 
take 14 million people using the transit system every day, with 
32 million trips, which comes to, as I said before, a penny per 
transit passenger trip, there is something radically wrong when 
you compare what those transit people have invested in security 
to what airlines had invested before 9/11. We have a serious 
problem here and we are not confronting it. Period. I have come 
to that conclusion.
    According to the Department of Homeland Security and the 
GAO, the FTA conducted security and vulnerability assessments 
of the Nation's 36 largest transit agencies. I want you to 
summarize very briefly and perhaps in writing to the Committee 
the primary conclusions of those assessments, and does a 
prioritized list of mass transit vulnerabilities even exist.
    Two questions.
    Ms. Hecker. You are asking that of GAO?
    Mr. Pascrell. I am asking that of you, Ms. Hecker.
    Ms. Hecker. At the time of our review, we actually did try 
to look at the security assessments and risk assessments and 
strategies that had been completed, mostly by the Office of 
Domestic Preparedness. They were incomplete at the time. They 
were ongoing. A lot of our focus was really on the process and 
the rigor and the consistency of what was being done.
    Mr. Pascrell. Are they still incomplete?
    Ms. Hecker. They were when our report was issued six months 
ago.
    Mr. Pascrell. Do we have a list of the priorities that you 
have established or anybody has established in terms of mass 
transit?
    Mr. Pascrell. I would say that would be an excellent 
question to ask Ms. Henke. That is the resource.
    Mr. Pascrell. Ms. Henke? I will take your advice.
    Ms. Henke. Sir, we do have some information as it relates 
to priorities on where we believe Federal resources should be 
invested, based upon, once again, the national preparedness 
goal, our national priorities, and our targeted capabilities, 
and making certain that we are investing the limited resources 
in manners that are going to have a great return or hopefully a 
very positive return on the protection and safety and security 
of the Nation.
    Mr. Pascrell. As you know, Ms. Henke, since fiscal year 
2003, the Department of Homeland Security has managed the 
Transit Security Grant Program. The basis on which the funds, 
as I understand it, are allocated and the procedures for making 
funds available to the transit agencies have changed 
significantly in those three years.
    In fiscal year 2003, the security grants were made directly 
to the transit agencies. In 2004, the funds had to be passed 
through a State administrative agency. In 2005, the transit 
security grant funds were made available to regional transit 
security working groups, which had to reach a local consensus 
on funding allocations within an urban area before applying for 
security grant funds in the first place.
    It hardly seems efficient to me to change the grant funding 
mechanism each year. Why is it changing each year?
    Ms. Henke. Sir, it has evolved each year.
    Mr. Pascrell. What has evolved?
    Ms. Henke. The way in which the resources--
    Mr. Pascrell. I mean the history of man evolves. I mean, 
what has evolved?
    Ms. Henke. Sir, what we have done over the past couple of 
years is once again look at the resources we have available and 
try to figure out--
    Mr. Pascrell. Excuse me, Mr. Chairman. The resources that 
were made available? Is that at the source of the problem?
    Ms. Henke. No, sir.
    Mr. Pascrell. You said it.
    Ms. Henke. Sir, we are looking at the resources.
    Mr. Pascrell. This is not the Colbert Report. That is what 
you just said.
    Ms. Henke. I apologize, sir. I am not sure I understand 
your point.
    Mr. Pascrell. What does this depend upon, these changing 
from year to year of how we fund the programs in transit?
    Ms. Henke. It is looking at the risk that we have and how 
to allocate the resources we have to address the risks 
throughout the Country, and making certain that as we are 
addressing risk, we are doing it in a comprehensive manner, 
that the strategies that the transit systems have feed into a 
systems approach, that feed into the urban area, and feed into 
a State homeland security strategy, or a multi-state strategy.
    Mr. Pascrell. Do you think that it is comprehensive, what 
you just said, and that what is happening out there is 
comprehensive?
    Ms. Henke. I think what we are looking at, we are trying to 
once again utilize the resources from the Federal level, and 
with our partners at every single level, to maximize resources 
available to address risk.
    Mr. Pascrell. I have 26 questions here, but obviously my 
time is up.
    Ms. Henke. Okay.
    Mr. Pascrell. I want to conclude by just one quick 
question, if I may, Mr. Chairman. Thank you, Mr. Chairman.
    When you are talking about a penny a trip, okay, do you 
want me to make that comparison to what we spend in protecting 
our airlines and our airports? How do I reconcile the two? Help 
me do that. Are those people who fly more important than those 
people who take choo-choo trains? Are those people who fly more 
important than those people who take the bus? Let's get to the 
heart of the issue.
    I am not speaking to you personally. I thank you for your 
service. I sincerely believe that, but you know, we have heard 
this rhetoric over and over and over again. I want to know how 
you help me reconcile the major differences between what we 
spend per passenger in the air as well as on land, for transit. 
You tell me.
    Ms. Henke. Sir, aviation security by law is a Federal 
responsibility. That is not the case for transit security.
    Mr. Pascrell. What the heck happened before 2001 if it was 
a Federal responsibility? The Federal Government did not 
provide money before 2001.
    Ms. Henke. I am not saying that it did. I am saying 
currently, sir, aviation security is a Federal responsibility.
    Mr. Pascrell. Is it a Federal responsibility to deal with 
the transit systems of this Country? Is that a Federal 
responsibility? What is the beginning and end of the Federal 
responsibility with that regard?
    Ms. Henke. Sir, we have a partnership with all our 
stakeholders on the Federal, State and local level and with 
communities across the Country to address our transit security.
    Mr. Pascrell. We use the word ``partnership'' when we talk 
about the airlines, too now, since we are investing so much 
money in airline security. So we have a partnership with the 
transit companies and systems throughout the Nation. Therefore, 
we have a responsibility, I guess, don't we?
    Ms. Henke. It is a shared responsibility, sir.
    Mr. Pascrell. Are we meeting our Federal responsibility as 
far as you are concerned?
    Ms. Henke. That is something for the Administration and the 
Congress to determine.
    Mr. Pascrell. I have no more questions.
    Mr. Petri. All right.
    Let's see. Mrs. Schmidt, any questions?
    Mrs. Schmidt. Yes, I have one.
    Could you tell me, any one of you, what you feel, do you 
think that the United States transit systems and intercity bus 
companies need? What kind of Federal assistance do you think 
that they need to adequately meet the security needs, and have 
the amounts provided specifically for transit security been 
adequate to those needs?
    Ms. Bushue. Since you were late, I am Sandy Bushue and I am 
the Deputy Administrator for the FTA, so I would be happy to 
take on that question.
    While we were talking earlier today, while there is no 
amount of money that can protect it from the threats, I believe 
at FTA what we have done in the area of human capital, which 
oftentimes we minimize, but what we have done in the human 
capital area are three things. We have focused on public 
awareness, which is a kind of PR campaign that we have given to 
all of our grantees, worked with them, and have come up with 
really catchy phrases like in New York City, they have a phrase 
that the passengers use on poster all over that says, ``see 
something, say something.'' A great program. That is really 
important. Passengers are alert.
    The second human capital area on which we focus on is 
emergency preparedness. Grantees' employees receive money to 
conduct drills, and that has been very effective. So when 
something does happen, in the event that it does, 
unfortunately, employees know how to respond.
    And the third area we focus on is employee training. That, 
too, we believe has been very, very effective. We can do more 
of it and we will be doing more of it, but that has had a very 
effective role, I believe, in our transit community.
    Mr. Petri. Very good.
    I have one or two questions, and we will go into a second 
round.
    This first one is to Ms. Bushue and Ms. Henke. Do you know 
when the joint Department of Homeland Security and Department 
of Transportation regulation governing transit security grants 
will be issued? The statutory deadline I think is February 10, 
2006. So that has come and gone.
    Ms. Bushue. Mr. Chairman, you are absolutely right. I am 
here to say that we have worked very, very closely with TSA and 
GNT and FTA on getting that grant program out the door. We 
expect to publish the notice for proposed rulemaking in May, if 
not sooner. After doing so, I think we will be ready to start 
making grants, hopefully going through the process review for 
that, probably in early fall.
    Mr. Petri. So the proposed rules will come out, when did 
you say?
    Ms. Bushue. We expect to publish early May.
    Mr. Petri. Early May.
    Ms. Bushue. Yes.
    Mr. Petri. And then the comment period and then they go 
into effect.
    Ms. Bushue. That is correct, sir, yes.
    Mr. Petri. All right. Well, we look forward to that.
    And then also, budget year 2006 transit and rail security 
grants have not been released by your office for this current 
budget year. Do you know when they will be allocated? This is 
for Ms. Henke, actually.
    Ms. Henke. I figured that out.
    Mr. Petri. How much of the $150 million will go for transit 
security grants, if you know?
    Ms. Henke. Sir, I am going to try to remember the numbers 
off the top of my head. I believe it is $21 million that will 
be for intercity bus. I think it is approximately $8 million 
that will be for Amtrak, and the remaining for transit, out of 
the funding that has been made available. Those are approximate 
numbers. We can get back to you with the specifics on that.
    It is my hope and our anticipation that they will be 
released very soon. They are in the final clearance process. We 
are on a similar timeline as last year. Last year, they came 
out I believe on April 5. So we are on a similar timeline as 
last year.
    Mr. Petri. Thank you.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Ms. Henke, since we are now thinking about, although my 
mind is closed to the possibility, but I am in the minority. We 
will see. This new consolidating of the grants and not 
recognizing different sector, I want to understand how we might 
apportion those scarce funds. I am going to give you one 
example that was pointed out, and this predates you, so there 
is no way this is aimed at you. The Office of Inspector General 
had a follow-up report in February, 2006, and in that they say 
that Fortune 500 companies have been in and out of the pot. 
They were in the pot originally to get grants, then they were 
out of the pot, and then they were back in in the last round.
    In the last round, a Fortune 500 refinery received a port 
security grant in round five totaling $1 million for fencing 
and surveillance upgrades at a refinery located in a major 
port. It put up matching funds. That is good.
    However, you are looking at, as I understand it, $600 
million total funding for port, rail, truck, transit, all the 
security we have been talking about. This company had $1.2 
billion of profits in one quarter. That is $12.9 million a day. 
They could have taken two hours profit and put up the $1 
million on their own. Do you support further allocations like 
this out of that scarce $600 million?
    Again, you were not there when this was done. Are we going 
to take the Fortune 500 companies back out of this rather 
scarce grant competition, or are going to put them back in? Do 
you have any information on that?
    Ms. Henke. Sir, the law has them eligible. That was a 
determination made by Congress, as well as the match.
    Mr. DeFazio. Well, they were ineligible in round four by 
administrative rule. Does that mean there was a violation of 
the law in round four when they were made ineligible by rule?
    Ms. Henke. No. I am speaking to the law now. I will have to 
go back and check.
    Mr. DeFazio. I would like to see that the law is changed 
between round four and five. I am not certain of that. In any 
case, well, let's just say if we are having to prioritize, how 
high would you put on the list giving $1 million to a company 
that makes $12.9 million a day, as opposed to a public transit 
company or some other business that is struggling more, for 
instance, the trucking industry?
    Ms. Henke. Sir, I will be honest. I can't answer that 
question. We need to look at once again the risk that all our 
infrastructure faces, and we need to make determinations and 
follow the law on how to allocate those resources.
    Mr. DeFazio. Sure, but I guess I would just suggest to you 
that the American public would be pretty incensed to find that 
we had given a Fortune 500 oil company a $1 million grant to 
put up fending they should have paid for with two hours of 
their own profits which they have extracted from the American 
consumers by price gouging. But be that as it may, I will look 
forward to seeing the legal requirement that we require Fortune 
500 companies to be eligible for these grants when so many 
other folks are being shorted.
    I was told that I created some puzzlement with the way I 
ended before, so I just want to make it clear. It was something 
meant to be lighthearted. This is a very heavy subject. Ms. 
Henke in her former position had boiled down the mission of her 
agency to Santa Claus, Batman and Mother Teresa. She said 
Mother Teresa wouldn't work in this new position. So she was 
having a competition among her staff to replace Mother Teresa, 
and that is what I was referring to because some people 
apparently out there were puzzled by my reference.
    I put some thought to it, since I asked the question, and I 
would suggest to you that you change the whole triumvirate 
here.
    Ms. Henke. I am listening, sir.
    Mr. DeFazio. Here we go. I will see if I can get the lunch. 
Santa Claus we would replace with Scrooge, because there is not 
enough money; Batman, because he is too powerful, we would 
replace with Underdog, one of my favorites, but he can't quite 
get things right; and then Mother Teresa, I would replace, and 
this has a lot of resonance with me, because there is the same 
amount of money involved that you get for grants and 
everything, Dennis Kozlowski, because as Tyco's CEO, he is 
alleged to have committed a $600 million fraud, which is the 
amount of money we are going to spend on all of our grant 
program this year. I think there is just kind of a wonderful 
resonance there. But anyway, you can take it under advisement, 
and I will see if I get the invitation to lunch.
    Thank you, Mr. Chairman.
    Ms. Henke. If not an invitation to lunch on this, maybe on 
something else, sir.
    [Laughter.]
    Mr. Petri. I would advise you not to sip the tea.
    Mr. Pascrell?
    Mr. Pascrell. I mean, you can't make this stuff up. You 
have to admit that.
    I have an FTA question. According to the Department of 
Homeland Security, States that use their homeland security 
grant funds for transit authority and transit security, and you 
and I both know that States must use most of these funds to 
meet the urgent training for police officers and firefighters 
and paramedics. Both are urgent and deserving causes. It seems 
that transit security needs are being pitted against that of 
first responders. In my mind, this is an untenable situation.
    What are your thoughts on the ramifications for mass 
transit security and the FTA's mission in this area? Ms. 
Bushue?
    Ms. Bushue. Thanks for the FTA question.
    I have to say to you, I am a little surprised at that. I am 
not aware that transit security--
    Mr. Pascrell. This is pretty basic. I am not making it up 
either.
    Ms. Bushue. I am not saying that you are, but I am not 
familiar that DHS transit security grant money does go, 
probably it maybe goes to those first responders as it relates 
to the drills that transit agencies, the money that they 
receive to conduct the drills, because those drills do include, 
as I understand, the first responders, which would make sense. 
When there is an incident in security in transit, it is going 
to be more than just the transit security police will be 
involved. The first responders of the community will also be a 
very vital part of that drill.
    So I believe as it relates to the program at the Department 
of Homeland Security, if money is going to first responders, it 
is to conduct the transit drills that are very necessary and 
needed.
    Mr. Pascrell. Madam Deputy Administrator, I am not just 
talking about no general State homeland grants. I am not just 
talking about transit. I am talking about all the money. What 
we have done, and this is piggy-backing on what Mr. DeFazio was 
talking about. We have established a system at the Department 
of Homeland Security, that pits one interest against the other.
    I never, never got an answer to his question. I am piggy-
backing on that, because according to DHS, Homeland Security, 
States can use their homeland security grant funds. They may 
use it for transit security, but they also have to use it to 
train and equip the needs of police and fire. These are 
competing needs.
    Are you clear on what I mean? Maybe I am not making myself 
clear. I don't think this, in my opinion, that this is the best 
way to provide transit security.
    Ms. Bushue. Congressman Pascrell, at the FTA, we advise on 
transit.
    Mr. Pascrell. I know.
    Ms. Bushue. We work very closely with the Department of 
Homeland Security.
    Mr. Pascrell. I am not blaming you guys. I am saying to you 
do you accept the system?
    Ms. Bushue. Well, I think as it relates to first responders 
working closely with transit, I think it does make sense. You 
have to have a comprehensive approach to security. So from that 
respect, I think, yes, it does make sense, that first 
responders are working with transit security police and transit 
security personnel to ensure when a crisis does occur that they 
know how to respond and how to react.
    Mr. Pascrell. I don't agree with that. I don't agree with 
you at all on your answer, which is maybe immaterial. I would 
ask you to go back and look at that.
    Ms. Bushue. I would be happy to do so.
    Mr. Pascrell. And I would gladly supply the question, 
because I think we have established an untenable situation 
here.
    My second question to you is this, SAFETEA-LU, which was 
our huge five-year plan for transportation in this Country, 
directs the Department of Transportation and the Department of 
Homeland Security both to issue a joint final regulation to 
establish the characteristics of and requirements for public 
transportation security grants, as you know.
    Ms. Bushue. Yes.
    Mr. Pascrell. The legislative deadline was February 10. I 
just want to make sure if I caught your answer, those 
regulations will be done by May?
    Ms. Bushue. The notice for the proposed rulemaking will be 
out by May, correct.
    Mr. Pascrell. Thank you.
    My next question to you, the Federal Transit Administration 
has explicit statutory authority to oversee and regulate 
transit safety through making grants. Federal transit funds are 
required to be expended on security improvement as well. In 
fact, transit systems in urbanized areas, areas of more than 
50,000 population, are required to expend at least 1 percent of 
their Federal formula grant funds each fiscal year for transit 
security projects.
    In your opinion, have these sources of funding been 
adequate for FTA to successfully carry out the mission and how 
are FTA grants and Homeland Security grants harmonized for 
maximum security? What kind of meshing, melding is going on 
here? And are additional funding sources necessary?
    Ms. Bushue. Absolutely. The 1 percent is the floor. Our 
transit grantees can use actually as much as they want, but the 
5307 money for eligibility for transit security activities such 
as, again getting back to the public awareness campaign, the 
training of employees in emergency preparedness drills, they 
can use their urban formulas urban grant money for those 
activities.
    Now, regarding coordination, that gets back to our chart 
here.
    Mr. Pascrell. I was looking at it before.
    Ms. Bushue. I know it probably looks maybe a little bit 
bureaucratic.
    Mr. Pascrell. That is one of the more simple ones that we 
have seen.
    Ms. Bushue. Thank you. I think it is as well, and that is 
why I wanted to show it to the Committee, because this is the 
blueprint. I would like to say that we really do have a very 
good relationship with the Department of Homeland Security and 
we are fixing and looking at that coordination to ensure that 
those eight, I would submit to you, very important what we call 
project management teams or modules are working and be 
effective.
    Mr. Pascrell. I just wanted to alert you that the more 
folks on that side say that there is great coordination and 
relationship, we have found that there is trouble in Dodge 
City. I just wanted to warn you in that regard.
    Just in conclusion, I would say this, Mr. Chairman. Thank 
you for your patience, number one. And I thank the members of 
the panel. But I have some serious reservations about how this 
is working. I truly believe, and I don't think you have 
contributed to it, I hope not, that this attempt to help 
transit security in this Country, which I think is a huge 
problem, a huge problem, which we have not started to solve, 
reflects the dysfunctional nature of DHS.
    If we can't get this right, in terms of past history before 
9/11 in other countries, then we cannot say to the American 
people that we have moved. We are never going to have a 
seamless system. We know that, but to simply say that the 
chances of this happening, that is not good enough. You know it 
is not good enough, and that is not how you protect American 
citizens. That is not how you protect American citizens.
    So thank you for your presentations.
    And thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Other questions? If not, we thank this panel, and turn to 
the second panel, which consists of Mr. William Millar, 
President of the American Public Transportation Association; 
Peter J. Pantuso, who is the President and CEO of the American 
Bus Association; and Mr. Michael Siano, International Executive 
Vice President of the Amalgamated Transit Union.
    We thank you all for coming and for reducing the summary of 
your testimony to five minutes. We will begin with the very 
familiar figure before this Committee, and that is Bill Millar, 
President of the American Public Transportation Association.

  TESTIMONY OF WILLIAM W. MILLAR, PRESIDENT, AMERICAN PUBLIC 
  TRANSPORTATION ASSOCIATION; PETER J. PANTUSO, PRESIDENT AND 
  CEO, AMERICAN BUS ASSOCIATION; MICHAEL SIANO, INTERNATIONAL 
      EXECUTIVE VICE PRESIDENT, AMALGAMATED TRANSIT UNION

    Mr. Millar. Good afternoon, Mr. Chairman. Thank you for 
that nice introduction. It is certainly great to be back before 
this Committee. I want to particularly commend you and Mr. 
DeFazio on the Committee for having these hearings on this very 
important topic.
    I believe the last time that I appeared before this 
Committee on this topic was in June of 2004. It was shortly 
after the terrible terrorist bombings in Madrid. Much of what I 
have to say unfortunately is the same as it was then. I am 
particularly appreciative as I hear the members' questions this 
afternoon. It is very clear that many of the members of this 
Committee have a very clear understanding of the issues and 
some of the difficulties that are here.
    Also, I want to thank the Committee for sponsoring H.R. 
5082 in the last Congress. We believe legislation like that is 
essential if we are going to get proper resources for improving 
the security of the millions and millions of Americans who rely 
on public transit. We look forward to continuing to work with 
the Committee to develop such legislation as you may feel are 
appropriate.
    In my testimony, I cover many of the basic statistics. I 
can tell from the members' comments that they are well familiar 
with those statistics, so I think I will move along and really 
focus on a couple of issues.
    First, and I think it is inherent in some of the question 
that were asked earlier and it is very important. We cannot 
make everybody perfectly safe. We understand that, but we can 
do better. We can do reasonable, common sense investments in 
transit security that will make the citizens who rely on our 
systems safer; that will make our employees safer; and will 
make the communities in which we operate safer.
    With your permission, Mr. Chairman, I didn't bring it with 
me today, but I would like to submit to the record a copy of 
the oft-referred to earlier survey that we did on the kinds of 
things that our members believe are necessary to improve 
security.
    Mr. Petri. Without objection, it will be a part of the 
record when you submit it.
    Mr. Miller. Now, that survey suggested that we ought to 
invest at least $6 billion. It was the best estimates we had in 
late 2003, when that survey was taken. Some have suggested that 
seems like a very high number. Well, it certainly would be good 
rhetoric to say how much is one life worth, how much are 
thousands of lives worth. Yes, it is very hard to say exactly 
what the right number is, but the kinds of things that our 
members know need to be done are exactly the kinds of things 
that the GAO just told you, based on their examination not only 
of U.S. transit systems, but transit systems from around the 
world.
    And they are very common sense things, making sure you have 
good, reliable, interoperable radio and other types of 
communication systems; making sure that you are using the 
latest in technology of camera and video technology, both to 
prevent and, as we heard in the London case, quickly arrest the 
perpetrators afterwards; make sure we have automatic vehicle 
locator systems; make sure we have proper training for our 
employees; make sure that our employees have the opportunity to 
drill, to practice the skills that they have been taught. And 
the list goes on and on and on.
    As one might say, this is not rocket science. We know what 
needs to be done to make our systems safer and more secure. We 
have invested well over $2 billion. That is a number from two 
years ago. We hope to update that number. We have invested well 
over that.
    We understand, with all the financial pressures on the 
Congress, we may need to, rather than look at $6 billion 
quickly, we may need to spread that out over time. This year, 
we have asked the Appropriations Committee to provide at least 
$560 million in the 2007 Homeland Security appropriations for 
transit grants. That would be a good down payment on the $6 
billion investment we should be making.
    We have also asked that the Congress provide $500,000 to 
the Department of Homeland Security to support the development 
of the standards. Our chart over here, if you notice there is 
APTA up in the upper right-hand corner there. One thing we are 
very pleased with is that the Department of Homeland Security, 
like FTA, like FRA, have understood the wisdom of using 
industry knowledge and knowhow to develop standards, but it 
takes investment. We are suggesting at least $500,000 a year in 
that investment.
    Finally, as again the GAO found, one of the key things to 
making our system safer is to have proper intelligence ahead of 
time of what the terrorists may be wanting to do. The Congress 
gave FTA a number of years ago a grant to help establish 
something called the Public Transit Information Sharing 
Analysis Center, ISAC is the inevitable acronym for that. The 
money for that has frankly run out. We have suggested to the 
Department of Homeland Security that has turned out to be very 
valuable. We should fund that, so we are also asking the 
Congress to provide $600,000 so we continue a proven success in 
the ISAC area.
    Finally, we are asking the Department of Homeland Security 
to simplify the grant process. Several of the members earlier 
talked about the complications of the DHS grant process. I 
happen to have here a recent presentation that staff members 
from the DHS made describing the last few years of the program. 
As was correctly identified, we have had this program four 
years. We have had three different agencies inside DHS that 
have tried to administer this program. In last year's program 
alone, in addition to all the other requirements, there were 
five new requirements.
    Some people have said the money has flowed slowly. In fact, 
we have said the money has flowed slowly. Well, when you 
constantly change the requirements, when you shuffle new 
personnel in and out, when you keep moving the shells, it is 
very hard to get the rules right to move quickly on the grants-
making process.
    We think there is a simple answer. We think the work this 
committee has done over the last frankly couple of decades in 
developing a process that works very well, and that is all of 
our members already have a granting relationship with the 
Federal Transit Administration. We think it should not be a 
problem for the Congress and the DHS to agree on the rules.
    Then whatever that is and whatever appropriation it is, 
simply transfer it to FTA, and let it go out through their 
grant mechanisms, which we already do, and then you have the 
audit trail already established because it is already there. It 
is something this Committee developed years ago. It works very, 
very well. There are coordination mechanisms in it to make sure 
that we properly spend the money, and it goes on and on.
    I know my time is up. I would be happy to go into these or 
any other topics in greater detail at your pleasure. Again, I 
appreciate the invitation to be with you today.
    Mr. Petri. Thank you.
    Mr. Pantuso?
    Mr. Pantuso. Thank you, Mr. Chairman, Ranking Member 
DeFazio, and the members of the Committee, for holding this 
hearing.
    The American Bus Association and our members take very 
seriously the duty to provide safe bus transportation and 
efficient transportation. We want to make sure that ``safe'' 
also means secure.
    While our name may connote only transportation, our reach 
is certainly much broader. We serve as the voice for almost 
1,000 bus and tour operators around the Country, representing 
65 percent of all the private buses on the road, as well as 
another 2,800 members who are in the travel industry, State and 
local tourism offices that represent national treasures like 
the Sears Tower or the Statue of Liberty, the Golden Gate 
Bridge.
    ABA members have assessed the security needs in the 
industry over the past number of years. Our operators tell us 
that what they need to protect their passengers is security 
training as their first priority. They need to train personnel, 
drivers, dispatchers, mechanics, both in techniques of threat 
assessment and in threat recognition, as well as in crisis 
management.
    Their second greatest need is for equipment, including 
communications systems that connect buses with the home-bases, 
and with first responders wherever those buses might be in the 
Country. They also need equipment such as driver shields and 
cameras and wands to wand passengers at bus terminals around 
the Country. And they need protection for bus terminals.
    Third, they need information systems that allow operators 
real-time information, including the status and location of 
their equipment and their personnel.
    This need for security funds and grants extends to 
intercity schedule operators, to shuttle operators, to charter 
and tour operators, to other providers in the industry. 
Beginning each spring, for example, the charter and tour 
industry begins to arrive in the Nation's capital, tens of 
thousands of buses roll into Washington over the next couple of 
months, and millions of tourists blanket our city. And while 
the motor coaches that bring these citizens are ubiquitous on 
the streets of Washington, the buses and the people they carry 
must be protected.
    Compared to other modes of transportation, as has been 
mentioned, the security needs of the private bus industry are 
fairly modest, but the need for Federal funding is large. The 
private bus industry is one of small businessman and 
businesswomen. Since 9/11, Congress has given the airlines tens 
of billions of dollars for security. Since the Madrid terror 
bombing, rail security funding has been increased. But the 
amount appropriated to the private bus industry amounts to less 
than one cent per passenger. At 774 million passengers that we 
move annually, we move more than the airlines and Amtrak 
combined, that level of funding is totally inadequate.
    Over the past several years, ABA has worked with this 
committee on security funding, but as you pointed out earlier, 
Mr. Chairman, Congress has not yet passed a comprehensive bus 
security bill. ABA has also worked with the Appropriations 
Committees in both houses to obtain security funds and grants, 
but have only received $55 million over the past five years in 
total, slightly more than $10 million per year.
    The private bus industry has made good use of the funds 
that we have received, providing nationwide classroom security 
training, printed and electronic materials for the industry, 
and individual bus companies have likewise developed successful 
initiatives with these funds. Greyhound, for example, is using 
funds and their own money to increase wanding at their largest 
terminals. Wisconsin Coach Lines has used grants to purchase 
wanding devices, as well as metal detectors. Other grants have 
been used to secure garages and for training as well.
    Obviously, there is much more to be done, since only 20 
percent of the demand was met in 2005 grants and since only 
one-half of the companies that applied for grants received 
them. And that, under the auspices that 90 percent of the 
private bus companies in the Nation were excluded from even 
being able to apply for security grants last year.
    I would also point out that what we have discussed and 
proposed today can and will be of benefit in any emergency or 
disaster situation. After the aftermath of Katrina and the role 
that our members played in moving people out of that disaster 
area, those kind of services, systems and products that we are 
talking about would be beneficial in the future.
    In the future, Mr. Chairman, our members need improved GPS 
systems, additional real-time information. More importantly, 
they need expanded baggage, passenger and package express 
screening.
    In conclusion, what this industry really needs in the long 
term, as has been mentioned by my colleague, is some type of 
sustainable funding, something that will continue the efforts 
which began a number of years ago. The programs and the funding 
stream for security cannot start and stop. Security is not a 
start and stop exercise, but one that requires an ongoing plan 
and the funding stream to maintain that plan.
    Mr. Chairman, the American Bus Association looks forward to 
working with you and with the committee to ensure that the 
transportation system justly lauded for safety, reliability and 
low cost, retains that ranking when security is added to the 
list of duties.
    Thank you for your time. I will be happy to answer any 
questions.
    Mr. Petri. Thank you
    Mr. Siano?
    Mr. Siano. Chairman Petri, Ranking Member DeFazio and 
members of the Committee, on behalf of the members of the 
Amalgamated Transit Union and International President Warren 
George, I would want to thank you for giving me the opportunity 
to testify today on the ATU's priorities and strategies for 
enhancing transit and over-the-road bus security.
    Faced with the realities of terrorist attacks against mass 
transit, the ATU has for years worked to raise awareness of our 
members and employees to this danger and to advance the real 
solutions and initiatives to enhance the safety and security of 
the systems that our members operate and maintain. We firmly 
believe that the labor community must be a partner in any 
effort to address the security threats facing our industry.
    For that reason, we have worked closely with our members, 
the transit and bus industries, Federal Transportation 
Administration, the Transportation Security Administration, and 
elected officials at all levels of government.
    A short list of our efforts include producing and 
distributing a security training video and pamphlets, 
conducting a joint labor and management conference on transit 
security, working with DOT and industry security experts to 
develop Transit Watch, and contributing to the design, 
distribution and promotion of the National Transit Institution 
security and emergency response training programs for frontline 
transit employees.
    The transit and over-the-road bus industry themselves have 
also taken steps toward securing their operations, but due to 
in large part funding constraints, they have not gone far 
enough. The Federal Government must step up to the plate and 
provide the necessary funding, guidance and even mandates to 
provide the level of security that transit and bus passengers 
and employees deserve.
    Common sense tells us that the single most important thing 
that we can do to increase transit and over-the-road bus 
security is to provide each and every frontline transit 
employee, including rail and bus operations, customer service 
personnel and maintenance employees, with security and 
emergency preparedness and response training. While we should 
not abandon research and development of new technologies, we 
must recognize what has been proven to be the most cost-
effective security measure: employee training.
    In the event of a terrorist attack within the mass transit 
system, the response of employees at a scene within the first 
few minutes is critical to minimize the loss of life and the 
evacuation of passengers away from the incident. Transit 
employees are the first on the scene, even before the police, 
firefighters and emergency medical response. They must know 
what to do in order to save the lives of their passengers and 
themselves.
    During the 1995 sarin gas incident in the Tokyo subway 
system, two transit employees unnecessarily lost their lives 
when they tried to dispose of the gas devices themselves, 
instead of simply evacuating the scene. Proper training would 
have prevented these losses and possibly decreased the number 
of passengers who were exposed to this deadly gas.
    Frontline transit and bus employees are also crucial in 
preventing attacks. They are the eyes and ears of the system 
and are often the first to discover suspicious activities and 
threats, or the first to receive reports from passengers. They 
need to know how to recognize threats and the appropriate 
protocols to follow for reporting and responding to these 
threats.
    Security experts and officials from both the FTA and the 
TSA have publicly recognized the need for employee training, 
and yet little, if anything, has been done to ensure the 
training is provided. While many in the transit industry claim 
that employees are being trained, this is simply not reality. I 
know it because I have talked to our members, the ones who 
supposedly are being trained, and they tell me a different 
story.
    A survey of ATU members conducted in the past fall confirms 
what I have heard from members. While the results are still 
being compiled, the preliminary results indicate that 
approximately 60 percent of ATU members working for the U.S. 
transit systems remain untrained in emergency preparedness and 
response. Surprisingly, this number includes employees of 
transit systems in major cities that are high-risk of terrorist 
attacks. For security reasons, I will not publicly disclose the 
names of these systems.
    Despite overwhelming evidence supporting the need for 
training and the availability of free training programs through 
NTI, transit systems continue to resist calls for training 
because of the operating cost to pay employees and to keep the 
buses and trains running during the training sessions. It is 
time that the Federal Government stepped in to not only provide 
funding for the operating costs associated with training, but 
also require all transit systems to train each and every 
frontline transit employee.
    The leadership of this Subcommittee and the T&I Committee 
as a whole recognized the need for such action in the last 
session of Congress when you reported out a bill that would 
have authorized significant funding for both transit and over-
the-road bus security, and would have required transit systems 
to provide the training to frontline employees as a condition 
of receiving such funds. The ATU supported this bill and we 
will encourage the committee to move similar legislation as 
soon as possible.
    We need to take action now to address the security needs of 
the transit and over-the-road bus industries, and most 
importantly to train the workers in these industries. Doing so 
now will save lives.
    I thank you again for the opportunity to testify on behalf 
of the ATU, and I would be happy to answer any questions you 
may have.
    Mr. Petri. Thank you very much.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Thanks to you three for your testimony.
    I guess I would just ask one question. I think you were all 
here in the room when we were, and I am not going to ask the 
three people to describe the agency, although you might get in 
the contest too and see if you can get a free lunch from Ms. 
Henke.
    But this new TIP Program, I mean, I think Mr. Millar, you 
pretty much addressed that in saying how if every year you 
changed the program, it is pretty hard for people to figure out 
how to apply consistently and actually get the money. And then 
they say, well see, the people don't really need the money 
because, hey, we didn't use it.
    I mean, do any of you think this is a good idea that we 
would have transit compete with ports, compete with trucking, 
compete with all the other needs we have?
    Mr. Millar. Sir, we do not think it is a good idea. All the 
things you have just mentioned are important, and in their own 
way have to be properly secured. Homeland security is part of 
national security. Since the founding of the republic, national 
security belongs to the Federal Government. I learned that in 
civics class a long time ago. I assume everyone else in the 
room did too. They have not yet learned it at DHS.
    Mr. DeFazio. Well, we are busily rewriting the textbooks as 
they change the grant process.
    Do either of the others, yes?
    Mr. Pantuso. Yes, sir, Mr. DeFazio, we would certainly 
agree that it makes no sense to put each mode in competition 
for funding. There are too many instances where the modes 
compete for other funding programs right now, and where it 
relates to security we should all be working as a system and a 
unit for security.
    As Mr. Millar pointed out earlier, it makes no sense to 
have programs that change from year to year or time to time. We 
have been through that in our own industry enough. Every time 
that there is a grant application available and up for the 
members of the industry, it is different than what they applied 
for before. Sometimes they can participate, sometimes they 
can't. Some things they want, some things they don't want. It 
makes it confusing. So it is very, very difficult to try to 
secure a system, let alone a mode, when you are changing all 
the time.
    Mr. DeFazio. Yes.
    Mr. Siano. My answer would be no. Transit should be a 
separate grant program and should not have to compete with 
ports and rails for funding.
    Mr. DeFazio. Great. Thank you.
    I guess one other, Mr. Chairman. I can't help myself on 
this one. Do you have any opinion on giving a Fortune 500 oil 
company that makes $12.9 million a day a $1 million grant to 
put fencing around one of its port facilities? Do you think 
that is something, given the amount of money we have available 
and the needs of your folks, that that is a good expenditure of 
tax dollars? Does anybody want to volunteer on that one?
    Mr. Millar. I will volunteer and add to it. It certainly 
does not make sense to us. We just don't understand it. The 
other thing don't understand is that sometimes our members are 
told to do certain things in the name of security. I think of a 
small Midwestern transit system member we have. They were told 
to put fencing all around their property. They are in a very 
small town.
    I am not sure what the risk is, but hey, they were told to 
put the fence in. They applied for grants. They put the fencing 
in. Right next to them is a major fertilizer company producing 
the kind of product that blew up the building in Oklahoma City, 
and they aren't required to do anything. We really wonder in a 
small town in the Midwest which is the greater threat.
    So you see these kind of inconsistencies all the time. It 
is very frustrating to our members and our members simply don't 
understand it.
    Mr. DeFazio. Well, neither do I, Mr. Millar. Maybe we will 
find that in the new textbook, too.
    Okay, thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Blumenauer?
    Mr. Blumenauer. I would just like to follow up on one item. 
When we are talking about prioritization for grant monies, 
there are a number of areas that are legitimate targets for 
terrorism. It seems to me that what you gentlemen represent in 
the presentations you made is you represent a sector that is 
not just a target, but it is part of the solution to incidents, 
be they terrorists or natural disaster.
    Earlier, you may have heard I referenced what happened with 
Hurricanes Rita and Katrina, where transit had the potential. 
We have referenced what the independent bus operations did, for 
instance. We have had transit agencies and employees from 
around the Country step in to try and help New Orleans.
    It seems to me that one of the areas that deserves special 
consideration, and why we need to train the workers and equip 
the systems is that there is a likelihood that they may be a 
target based on the last 20 years of history, and what you 
represent will be a solution to a wide range of incidents, be 
they terrorist or more likely natural disasters.
    Do you have any thoughts about how we might weight the 
grants, weight the attention, weight the oversight and 
investment to represent the dual nature of the service that you 
gentlemen represent, or services you gentlemen represent?
    Mr. Millar. Yes, sir. We have several ideas in that regard.
    First, we believe that there is a basic level of training 
and information that must be given to all transit operators to 
all transit employees. We certainly agree with the ATU on that 
point. Beyond that, we are certainly in agreement with DHS that 
for significant amounts of investment, we certainly are 
prepared for some kind of risk-based approach. That would seem 
to make logical sense.
    But I think as several of the members questioned the 
previous panel, figuring out how you figure out those risks is 
another matter. For example, last Friday I was in Gulfport and 
Biloxi, Mississippi meeting with the transit officials who are 
struggling the best they can, now seven months after Katrina. 
Their FEMA money was taken away from them on March 1, and now 
they are making it on their own, so to speak, in this.
    It is very clear to me from what I saw that day that, one, 
they have done a great job in supporting their community; and 
two, they could do a lot more; and three, much of what is 
necessary to improve transit systems in the security area is 
equally applicable in natural disasters, as my colleague from 
ABA has already said.
    So if we are going to go to a risk base, which makes sense 
to us. I think we have to think of it in bigger terms. We have 
to realize the contribution that transit makes and, as several 
of us have said, the transit workers are also the first-line 
responders, so how does that factor into the whole thing as 
well.
    So yes, it is complicated, but if there isn't sufficient 
resource, if there isn't enough money, then we wind up fighting 
over crumbs and we really do not get better security and we 
really do not get better at preparing for natural disasters. So 
we need a significant increase in funding and then we need to 
work together and cooperate to develop what makes sense in 
terms of risk assessment.
    Mr. Pantuso. Congressman, let me only support what Mr. 
Millar just said and my other colleague from the ATU, that if 
we are looking at priorities, the first priority is certainly 
the people. The efforts that were put forth by the transit 
community, by the private bus industry following Katrina relied 
on people. But it also relied on equipment, on some basic 
communications equipment and systems that are not in place 
right now.
    Our buses, unlike the transit systems, move all over the 
Country, and they have a different need because they are in 
different places. They are not at a home base every single 
night. So in simple terms, people and some basic levels of 
equipment are what we need and what we should prioritize. It is 
not a lot of money in terms of the scope, but it is moving in 
the direction much further than we have done in the past.
    Mr. Siano. Just a comment. The people and the bus drivers 
and mechanics down in the area of Hurricane Katrina, just so 
you understand that the people that they are talking about, 
they are our members down there. So we have a big stake in what 
is being done down there.
    I had an opportunity just a few weeks ago to visit three 
days down there with our members down there. I cannot explain 
to you at all the devastation that is down there. You can't 
imagine and you have to be there to see it. They are running 
some service down there. They are not collecting any fares. 
Maybe about 50 percent of the employees are driving the buses. 
Other than that, 85 percent of the people are not working yet, 
not collecting a paycheck, and it is obviously a disaster all 
the way around.
    Mr. Blumenauer. I was disturbed, Mr. Siano, in your 
testimony, that still over half your members have not received 
training.
    Mr. Siano. Oh, that is absolutely true.
    Mr. Blumenauer. I find that troubling, deeply troubling.
    Mr. Chairman, my point about looking at transit systems and 
bus operations as part of the infrastructure, as well as the 
target, it seems to me that there may be some special 
consideration we may think about, because it is not just 
protecting and site-hardening and training, but it is how we 
use them to help in the next flood, the next hurricane, the 
next catastrophic event that requires moving large numbers of 
people safely. I would love to explore with our witnesses if 
there are ways that we might be able to quantify and factor 
that in as we look at other legislative vehicles.
    I think they are generically different than other targets 
that we are looking at. We don't rely on a chemical plant to 
help recover from a hurricane or to avoid one. So I think there 
is some special weight that needs to be considered.
    Mr. Millar. If I might just comment on that. Within APTA, 
we have created a task force of transit systems around the 
Country to examine how we might do a better job of helping each 
other in times of disaster. While it is focused on all kinds of 
disaster, certainly trying to learn the lessons coming out of 
Katrina, and we would be honored to share with this committee 
the work that we are doing there and seek your input and advice 
as well, because we believe that as an industry, we can do a 
better job of being better prepared so that we can do the 
things that you alluded to and that we agree need to be done.
    Mr. Petri. Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman.
    I would like your very brief reaction to the following. I 
want to finish the equation I was talking about earlier. That 
is, since fiscal year 2003 to now, 2006, $387 million has been 
spent by the Federal Government to assist you in transit 
security. So that is a little bit more than $100 million a 
year. In that very same period of time, we have spent $14 
billion in aviation security. That is almost $5 billion a year.
    And then I said, that is a penny per passenger for transit. 
It is $9.16 per airline passenger. Now, how do you read that?
    Mr. Millar. We read that as there has been enough 
investment in transit security. I don't know whether $9 is the 
right number for airports. That is not my field, but a penny is 
not enough for public transit.
    And while I have not taken our $6 billion and divided it, 
we could make that mathematical calculation, but the point is 
we need to get serious about this investment. There are common 
sense investments that need to be made. Only the Federal 
Government has the financial resource base to make sure that 
the things that should be at every transit property are at 
every transit property. We need to go forward to protect the 
millions and millions of Americans who use public transit every 
day.
    Mr. Pascrell. Mr. Pantuso?
    Mr. Pantuso. Well, I think if you use as the backdrop the 
Chairman's opening remarks, looking at the fact that surface 
transportation has been the target around the world, again, if 
you look at our segment of surface transportation, moving 774 
million people a year, and only receiving on average $5 million 
per year over the last five years, we are nowhere close to what 
it takes to protect this industry, or even to begin thinking 
about protecting this industry. We are millions and millions of 
dollars away from that point in time.
    Mr. Pascrell. Mr. Siano?
    Mr. Siano. Yes, it is my belief that people of influence 
and money fly planes. It is as simple as that. I think there 
was a time when I was younger and remember that everybody rode 
a bus, whether they were going across the Country or just going 
to the next city in New Jersey where I live.
    So I mean, the bus business was booming. But now with the 
airlines taking everything, and I agree, I think that is the 
ratio, a penny to almost ten bucks. I think that is a disgrace. 
I think that the people that ride our systems, whether Bill or 
I like it or not, are mostly, except for commuters living 
outside a big city like New York and driving into New York City 
from New Jersey, I think that they get the short end of the 
stick.
    Mr. Pascrell. It was implied after the natural catastrophe 
of Katrina, which was like an onion, when we peeled it away and 
saw the poverty that existed, both in that area and then after 
Rita in Southeast Texas. It was implied that if this happened 
in other areas, the response would have been quite different. 
Is anybody that cruel, that we would divide our money in terms 
of everything is a priority, nothing is priority, so we 
prioritize. We haven't said, or you don't perceive it that way, 
do you, that this group of people is obviously more important 
than those group of people. You don't think that is at the 
basis of this, do you?
    Mr. Millar. I would certainly hope not. That cannot be the 
basis for our democracy.
    Mr. Pascrell. Well, of course, of course. Let me ask one 
more quick question. What is the first thing that you need, 
besides, we are talking about Federal money, what is the first 
thing that you need, each of you, that you see the money should 
be going for? So it is not just general, say, categorical 
money?
    Mr. Millar. The money needs to go to prepare our people to 
implement the plans we already have, so it goes into training; 
it goes into drills; it goes into making sure they have the 
basic equipment they need to do the job they want to do.
    Mr. Pascrell. Mr. Siano, do you agree with that?
    Mr. Siano. Yes, absolutely. I absolutely agree that we need 
the money to do the necessary things to keep this transit 
system afloat in this great Country of ours, without a doubt.
    Mr. Pascrell. Mr. Pantuso?
    Mr. Pantuso. I agree with that for the most part. The 
personnel and training and communications are the two 
priorities. The other thing that I would put in that box as 
well that is not an additional cost is the issue of 
coordination, coordination between the different segments. Most 
of Mr. Millar's members, all of Mr. Millar's members obviously 
fall under FTA, and there are some great things that FTA is 
doing. But I can tell you that two years ago when we sat 
together on the same panel, and we looked at a similar kind of 
chart--
    Mr. Pascrell. Funny you bring that up.
    Mr. Pantuso. We don't get in the private bus industry 
access to some of the great information that is already put 
together, that FTA has developed and working with Bill's group.
    Mr. Pascrell. We are no further down the road in 
interrelating, and I apologize for the Federal Government for 
that, really. It is a darn shame.
    Thank you very much.
    Thanks, Mr. Chairman.
    Mr. Petri. Thank you.
    I have one question for the panel, and that is whether as 
an industry, the transit and intercity bus communities are 
still seeking authorization for transit and over-the-road bus 
security grant programs, authorization language or legislation. 
Since you are already receiving appropriations, why would 
authorization be important?
    Mr. Millar. We think authorization is essential. Yes, we 
are seeking that. We believe that the President has said that 
the battle against terrorists is a long-term proposition. Our 
understanding is that having solid programs properly authorized 
and funded by the Congress is going to be what is necessary 
over a long period of time to fight this battle and to have our 
citizens and communities and employees safer than they are 
today.
    So yes, we think authorization is important, essential, and 
that then it be followed up by proper appropriations, 
consistent with the program structure that would be authorized.
    Mr. Pantuso. Mr. Chairman, I would agree. The authorization 
process also doesn't pit mode against mode or dollar against 
dollar. Part of the challenge I am sure we all face by going 
the appropriations route, as opposed to through an 
authorization, is that we are competing for other programs, 
other projects, regardless of what they may be, whether they 
are security or something completely unrelated.
    The appropriations process sets out a long-term commitment 
that we can follow as an industry, put the plan in place, and 
allows us to move forward and meet that plan, and not have a 
program that is going to stop, start and change from minute to 
minute or year to year.
    Mr. Petri. Maybe just one follow-up question, Mr. Millar. 
In your testimony, you mentioned that there is already a kind 
of a grant and an interrelationship between the Federal Transit 
Administration and your members, and accounting the whole 
process in place, and that therefore homeland security grants 
would make sense to do as part of that process, or as an add-on 
to that process, rather than a whole separate process with 
different bureaucratic requirements and all of that.
    I am just curious as to whether you both feel that way. 
Your bus programs do not have that same relationship, so it 
probably doesn't make much particular difference to you how 
that grant process is organized.
    Mr. Pantuso. A long-term commitment regardless of how that 
is developed is important to us, but where that money goes, 
whether it continues to go through DHS as opposed to through 
Transit or through other programs is really immaterial. We are 
not unhappy with working with Homeland Security right now. What 
we are unhappy about is the way that program has been managed 
off and on over the last number of years.
    Mr. Millar. We think that history has proven that the 
coordinated approach that is in the Federal Transit program 
works. We think that the Department of Homeland Security has 
advocated, for example, sending the grants through States, and 
then the States send it down to the regions. Well, that just 
adds an unnecessary step and adds additional costs.
    In the months following the terrible tragedies and 
terrorist attacks of 2001, we developed, because we already had 
a relationship with FTA, FTA immediately stepped out. They did 
sensible things. They consulted with the industry. They were 
very good to work with on this. We think that you may as well 
take advantage of the relationships that are well established.
    We also can appreciate DHS's problem. They may not want to 
deal with several hundred transit systems. We can understand 
that. But FTA already has those relationships established. So 
as I said in my testimony, let the Congress set the policy; let 
DHS set the policy; and then once that is set and the funding 
levels are set, turn the money over.
    All the transit systems, urban and rural, already receive 
formula money. It doesn't seem like it is that big a stretch to 
us to then have another line item put in that budget, use the 
electronic funds transfer mechanisms. For example, in DHS right 
now, transit systems have to complete the project, get it 
certified as done by DHS before they can get the money to 
reimburse. So you know, you go a year or more getting the 
money.
    With FTA, the way you have structured their program, 
progress payments can be made available. You can get electronic 
funds transfer within a day or so of when you submit the 
properly supported invoice. The infrastructure is already 
there. To us, it seems like taking advantage of the 
infrastructure that is already there and works makes sense, 
rather than starting up a new infrastructure, as has been 
proven in the four years so far of DHS. I am certainly 
sympathetic that they are evolving their program, but we are 
losing time, and time is money.
    So our plea has been, let's use what works and makes sense. 
That isn't to say every year you won't have a little bit of 
variation as we learn more. That is natural, but this wholesale 
changing, three different organizations to manage the funds in 
four different years, five major changes in the program last 
year alone, that is not conducive to good management of public 
funds, in my opinion.
    So I think there is an answer. If there were no answer, the 
way DHS is doing it might be the only way. But there is an 
answer, and it works, and it is proven, and we ought to take 
advantage of it.
    Mr. Petri. Well, we are from the government and we are here 
to help.
    [Laughter.]
    Mr. Petri. Thank you all for your testimony.
    [Whereupon, at 4:20 p.m. the subcommittee was adjourned, to 
reconvene at the call of the Chair.]
[GRAPHIC] [TIFF OMITTED] 28276.001

[GRAPHIC] [TIFF OMITTED] 28276.002

[GRAPHIC] [TIFF OMITTED] 28276.003

[GRAPHIC] [TIFF OMITTED] 28276.004

[GRAPHIC] [TIFF OMITTED] 28276.005

[GRAPHIC] [TIFF OMITTED] 28276.006

[GRAPHIC] [TIFF OMITTED] 28276.007

[GRAPHIC] [TIFF OMITTED] 28276.008

[GRAPHIC] [TIFF OMITTED] 28276.009

[GRAPHIC] [TIFF OMITTED] 28276.010

[GRAPHIC] [TIFF OMITTED] 28276.011

[GRAPHIC] [TIFF OMITTED] 28276.012

[GRAPHIC] [TIFF OMITTED] 28276.013

[GRAPHIC] [TIFF OMITTED] 28276.014

[GRAPHIC] [TIFF OMITTED] 28276.015

[GRAPHIC] [TIFF OMITTED] 28276.016

[GRAPHIC] [TIFF OMITTED] 28276.017

[GRAPHIC] [TIFF OMITTED] 28276.018

[GRAPHIC] [TIFF OMITTED] 28276.019

[GRAPHIC] [TIFF OMITTED] 28276.020

[GRAPHIC] [TIFF OMITTED] 28276.021

[GRAPHIC] [TIFF OMITTED] 28276.022

[GRAPHIC] [TIFF OMITTED] 28276.023

[GRAPHIC] [TIFF OMITTED] 28276.024

[GRAPHIC] [TIFF OMITTED] 28276.025

[GRAPHIC] [TIFF OMITTED] 28276.026

[GRAPHIC] [TIFF OMITTED] 28276.027

[GRAPHIC] [TIFF OMITTED] 28276.028

[GRAPHIC] [TIFF OMITTED] 28276.029

[GRAPHIC] [TIFF OMITTED] 28276.030

[GRAPHIC] [TIFF OMITTED] 28276.031

[GRAPHIC] [TIFF OMITTED] 28276.032

[GRAPHIC] [TIFF OMITTED] 28276.033

[GRAPHIC] [TIFF OMITTED] 28276.034

[GRAPHIC] [TIFF OMITTED] 28276.035

[GRAPHIC] [TIFF OMITTED] 28276.036

[GRAPHIC] [TIFF OMITTED] 28276.037

[GRAPHIC] [TIFF OMITTED] 28276.038

[GRAPHIC] [TIFF OMITTED] 28276.039

[GRAPHIC] [TIFF OMITTED] 28276.040

[GRAPHIC] [TIFF OMITTED] 28276.041

[GRAPHIC] [TIFF OMITTED] 28276.042

[GRAPHIC] [TIFF OMITTED] 28276.043

[GRAPHIC] [TIFF OMITTED] 28276.044

[GRAPHIC] [TIFF OMITTED] 28276.045

[GRAPHIC] [TIFF OMITTED] 28276.046

[GRAPHIC] [TIFF OMITTED] 28276.047

[GRAPHIC] [TIFF OMITTED] 28276.048

[GRAPHIC] [TIFF OMITTED] 28276.049

[GRAPHIC] [TIFF OMITTED] 28276.050

[GRAPHIC] [TIFF OMITTED] 28276.051

[GRAPHIC] [TIFF OMITTED] 28276.052

[GRAPHIC] [TIFF OMITTED] 28276.053

[GRAPHIC] [TIFF OMITTED] 28276.054

[GRAPHIC] [TIFF OMITTED] 28276.055

[GRAPHIC] [TIFF OMITTED] 28276.056

[GRAPHIC] [TIFF OMITTED] 28276.057

[GRAPHIC] [TIFF OMITTED] 28276.058

[GRAPHIC] [TIFF OMITTED] 28276.059

[GRAPHIC] [TIFF OMITTED] 28276.060

[GRAPHIC] [TIFF OMITTED] 28276.061

[GRAPHIC] [TIFF OMITTED] 28276.062

[GRAPHIC] [TIFF OMITTED] 28276.063

[GRAPHIC] [TIFF OMITTED] 28276.064

[GRAPHIC] [TIFF OMITTED] 28276.065

[GRAPHIC] [TIFF OMITTED] 28276.066

[GRAPHIC] [TIFF OMITTED] 28276.067

[GRAPHIC] [TIFF OMITTED] 28276.068

[GRAPHIC] [TIFF OMITTED] 28276.069

[GRAPHIC] [TIFF OMITTED] 28276.070

[GRAPHIC] [TIFF OMITTED] 28276.071

[GRAPHIC] [TIFF OMITTED] 28276.072

[GRAPHIC] [TIFF OMITTED] 28276.073

[GRAPHIC] [TIFF OMITTED] 28276.074

[GRAPHIC] [TIFF OMITTED] 28276.075

[GRAPHIC] [TIFF OMITTED] 28276.076

[GRAPHIC] [TIFF OMITTED] 28276.077

[GRAPHIC] [TIFF OMITTED] 28276.078

[GRAPHIC] [TIFF OMITTED] 28276.079

[GRAPHIC] [TIFF OMITTED] 28276.080

[GRAPHIC] [TIFF OMITTED] 28276.081

[GRAPHIC] [TIFF OMITTED] 28276.082

[GRAPHIC] [TIFF OMITTED] 28276.083

[GRAPHIC] [TIFF OMITTED] 28276.084

[GRAPHIC] [TIFF OMITTED] 28276.085

[GRAPHIC] [TIFF OMITTED] 28276.086

[GRAPHIC] [TIFF OMITTED] 28276.087

[GRAPHIC] [TIFF OMITTED] 28276.088

[GRAPHIC] [TIFF OMITTED] 28276.089

[GRAPHIC] [TIFF OMITTED] 28276.090

[GRAPHIC] [TIFF OMITTED] 28276.091

[GRAPHIC] [TIFF OMITTED] 28276.092

[GRAPHIC] [TIFF OMITTED] 28276.093

[GRAPHIC] [TIFF OMITTED] 28276.094

[GRAPHIC] [TIFF OMITTED] 28276.095

[GRAPHIC] [TIFF OMITTED] 28276.096

[GRAPHIC] [TIFF OMITTED] 28276.097

[GRAPHIC] [TIFF OMITTED] 28276.098

[GRAPHIC] [TIFF OMITTED] 28276.099

[GRAPHIC] [TIFF OMITTED] 28276.100

[GRAPHIC] [TIFF OMITTED] 28276.101

[GRAPHIC] [TIFF OMITTED] 28276.102

[GRAPHIC] [TIFF OMITTED] 28276.103

[GRAPHIC] [TIFF OMITTED] 28276.104

[GRAPHIC] [TIFF OMITTED] 28276.105

[GRAPHIC] [TIFF OMITTED] 28276.106

[GRAPHIC] [TIFF OMITTED] 28276.107

[GRAPHIC] [TIFF OMITTED] 28276.108

[GRAPHIC] [TIFF OMITTED] 28276.109

                                    

</pre></body></html>
